APPENDIX
APPENDIX 1
APPENDIX 2
APPENDIX 3
APPENDIX 4
APPENDIX 5
APPENDIX 6
APPENDIX 7
APPENDIX 8

1
,4

11
12
12
,23
,44

,59

APPENDIX 1
: Court of Appeals 12/3/19 unpublished en banc
decision
FILED: December 3, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1502 (1 :09-cv-003479 -CCB)
YURIJ. STOYANOV Plaintiff - Appellant
V.

RAY MABUS; JAMES H. KING, Individually and in
his Official Capacity as the Head of Code 70; KEVIN
M. WILSON. Individually and in his Official Capacity
as the Head of Code 74 Carderock Division Naval
Surface Warfare Center; DAVID L. MAYO,
Individually and in his Official Capacity a~ the Head
of Code 743 Carderock Division Naval Surface Warfare
Center; MARK THOMAS, Individually and in his
Official Capacity as BEO Chief and Commander of
Code 00 Carderock Division Naval Surface Warfare
Center; DAVID CARON, Individually and in his
Official Capacity as Assistant Counsel Code 39
Carderock Division Naval Surface Warfare Center;
JACK K. TEMPLETON, Individually and in his
Official Capacity as Head of Code 20 Carderock
1

Division Naval Surface Warfare center; CATHERINE
L. KESSMEIIER, Individually and in her Official
Capacity as Counsel of Code 004 Carderock Division
Naval Surface Warfare Center; KENETH R.
GOLDMAN, Individually and in his Official Capacity
as Head of Code 71 Carderock Division Naval Surface
Warfare Center; KENNETH I. FORMAN, Individually
and in his Official Capacity as Head of Code 73
Carderock Division Naval Surface Warfare Center;
SAM HAN, Individually and in his Official Capacity as
Head of Code 74 Carderock Division Naval Surface
Warfare Center; CIRO MINOPOLI, Individually and
in his Official Capacity as Head of Code 75 Carderock
Division Naval Surface Warfare Center; WILLIAM
SNYDER, Individually and in his Official Capacity as
Head of Code 20 Carderock Division Naval Surface
Warfare Center; M. WADE, Individually and in his
Official Capacity as Head of Code 21 Carderock
Division Naval Surface Warfare Center; M. I.
BABERICH, Individually and in her Official Capacity
as Head of Code 64 Carderock Division Naval Surface
Warfare Center; BRUCE CROCK, Individually and in
his Official Capacity as Head of Code 741 Carderock
Division Naval Surface Warfare Center; WILLIAM
MARTIN, Individually and in his Official Capacity as
Head of Code 722 Carderock Division Naval Surface
Warfare Center; CHARLES R. REEVES, Individually
and in his Official Capacity as Product Area Director
of Code 09 Carderock Division Naval Surface Warfare
Center; L. MURPHY", Individually and in his Official
Capacity as Read of Code 22 Carderock Division Naval
Surface Warfare Center; DAVID WINTER, DR Former
Secretary of the Navy U.S. Department of the Navy
GARY ROGHEAD, Individually and in his Official
Capacity as Chief of Navy Operations; ARCHER M.
2

MACY, Individually and in his Official Capacity as
Commander of NSWC; PAUL B. SULLIVAN,
Individually and in his Official Capacity as
Commander of SEA 00; JEFFERSON BEAUREGARD
SESSIONS III, Attorney General; ROBERT K. HUR,
U. S. Attorney, U.S. Attorney; MARGARET LONG,
Individually and in her Official Capacity as
Administrative/Technical Specialist Code 39; GARY M.
JEBSEN, Individually and in his Official Capacity as
the Head of Code 70; GARTH JENSEN, Individually
and in his Official Capacity as Deputy Head of Code
70; MIKE MULLEN, Individually and in his Official
Capacity as Chief of Naval Operations; ELAINE B.
MCKINNEY, Individually and in her Official Capacity
as Deputy EEO Chief Code 004; WAYNE WEIKERT,
Individually and in her Official Capacity as the Head
of Code 70; CHRIS D. MEYER, Individually and in her
Official Capacity as EEO Chief and Commander of
Code 00; JEROME CARRUBBA, Individually and in
his Official Capacity as Security Manager of Code 03;
NEACLESA ANDERSON, Individually and in her
Official Capacity as General Counsel of Code 04;
JOSEPH VTGNALI, Individually and in his Official
Capacity as the Head of Code 7204; PAUL SHANG,
Individually and in his Official Capacity as the Head
of Code 707; SUN HAN, Individually and in his
Official Capacity as the Head of Code 74; ROBERT
WINGO, Individually and in his Official Capacity as
the Head of Code 7502; ROBERT KOLLARS,
Individually and in his Official Capacity as the Head
of Code 7102; JAMES SHANNON, Individually and in
his Official Capacity as Chief of NSWC; KEVIN M.
MCCOY, Individually and in his Official Capacity as
Chief of NAYSEA; GARY ROUGHHEAD, Individually
and in his Official Capacity as Chief of Naval
3

Operations; BARBARA REDINGER, Individually and
in her Official Capacity as Security Manager Code 40;
B. CAHILL, Ms., Individually and in her Official
Capacity as Head of Workforce Relations Branch Code
39
Defendants - Appellees
ORDER
The petition for rehearing en banc was
circulated to the full court. No judge requested a poll
under Fed. R. App. P. 35. The court denies the petition
for rehearing en banc.
For the Court
/s/
Patricia
S.
Connor.
Clerk
APPENDIX 2

: Court of Appeals 9/30/19 unpublished decision
FILED: September 30, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1502 (1:09-cv-03479-CCB)
YURI J. STOYANOV
Plaintiff - Appellant
V.
RAY MABUS; JAMES H. KING, Individually and in
his Official Capacity as the Head of Code 70; KEVIN
M. WILSON. Individually and in his Official Capacity
as the Head of Code 74 Carderock Division Naval
Surface Warfare Center; DAVID L. MAYO,
Individually and in his Official Capacity a~ the Head
of Code 743 Carderock Division Naval Surface Warfare
Center; MARK THOMAS, Individually and in his
Official Capacity as BEO Chief and Commander of
Code 00 Carderock Division Naval Surface Warfare
Center; DAVID CARON, Individually and in his
Official Capacity as Assistant Counsel Code 39
4

Carderock Division Naval Surface Warfare Center;
JACK K. TEMPLETON, Individually and in his
Official Capacity as Head of Code 20 Carderock
Division Naval Surface Warfare center; CATHERINE
L. KESSMEIIER, Individually and in her Official
Capacity as Counsel of Code 004 Carderock Division
Naval Surface Warfare Center; KENETH R.
GOLDMAN, Individually and in his Official Capacity
as Head of Code 71 Carderock Division Naval Surface
Warfare Center; KENNETH I. FORMAN, Individually
and in his Official Capacity as Head of Code 73
Carderock Division Naval Surface Warfare Center;
SAM HAN, Individually and in his Official Capacity as
Head of Code 74 Carderock Division Naval Surface
Warfare Center; CIRO MINOPOLI, Individually and
in his Official Capacity as Head of Code 75 Carderock
Division Naval Surface Warfare Center; WILLIAM
SNYDER, Individually and in his Official Capacity as
Head of Code 20 Carderock Division Naval Surface
Warfare Center; M. WADE, Individually and in his
Official Capacity as Head of Code 21 Carderock
Division Naval Surface Warfare Center; M. I.
BABERICH, Individually and in her Official Capacity
as Head of Code 64 Carderock Division Naval Surface
Warfare Center; BRUCE CROCK, Individually and in
his Official Capacity as Head of Code 741 Carderock
Division Naval Surface Warfare Center; WILLIAM
MARTIN, Individually and in his Official Capacity as
Head of Code 722 Carderock Division Naval Surface
Warfare Center; CHARLES R. REEVES, Individually
and in his Official Capacity as Product Area Director
of Code 09 Carderock Division Naval Surface Warfare
Center; L. MURPHY, Individually and in his Official
Capacity as Read of Code 22 Carderock Division Naval
Surface Warfare Center; DAVID WINTER, DR Former
5

Secretary of the Navy U.S. Department of the Navy
GARY ROGHEAD, Individually and in his Official
Capacity as Chief of Navy Operations; ARCHER M.
MACY, Individually and in his Official Capacity as
Commander of NSWC; PAUL B. SULLIVAN,
Individually and in his Official Capacity as
Commander of SEA 00; JEFFERSON BEAUREGARD
SESSIONS III, Attorney General; ROBERT K. HUR,
U. S. Attorney, U.S. Attorney; MARGARET LONG,
Individually and in her Official Capacity as
Administrative/Technical Specialist Code 39; GARY M.
JEBSEN, Individually and in his Official Capacity as
the Head of Code 70; GARTH JENSEN, Individually
and in his Official Capacity as Deputy Head of Code
70; MIKE MULLEN, Individually and in his Official
Capacity as Chief of Naval Operations; ELAINE B.
MCKINNEY, Individually and in her Official Capacity
as Deputy EEO Chief Code 004; WAYNE WEIKERT,
Individually and in her Official Capacity as the Head
of Code 70; CHRIS D. MEYER, Individually and in her
Official Capacity as EEO Chief and Commander of
Code 00; JEROME CARRUBBA, Individually and in
his Official Capacity as Security Manager of Code 03;
NEACLESA ANDERSON, Individually and in her
Official Capacity as General Counsel of Code 04;
JOSEPH VIGNALI, Individually and in his Official
Capacity as the Head of Code 7204; PAUL SHANG,
Individually and in his Official Capacity as the Head
of Code 707; SUN HAN, Individually and in his
Official Capacity as the Head of Code 74; ROBERT
WINGO, Individually and in his Official Capacity as
the Head of Code 7502; ROBERT KOLLARS,
Individually and in his Official Capacity as the Head
of Code 7102; JAMES SHANNON, Individually and in
his Official Capacity as Chief of NSWC; KEVIN M.
6

MCCOY, Individually and in his Official Capacity as
Chief of NAYSEA; GARY ROUGHHEAD, Individually
and in his Official Capacity as Chief of Naval
Operations; BARBARA REDINGER, Individually and
in her Official Capacity as Security Manager Code 40;
B. CAHILL, Ms., Individually and in her Official
Capacity as Head of Workforce Relations Branch Code
39
Defendants - Appellees
JUDGMENT
In accordance with the decision of this court, this
appeal is dismissed.
This judgment shall take effect upon issuance of this
court’s mandate in
accordance with Fed. R. App. P.41;
/s/ PATRICIA S. CONNOR. CLERK
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1502 (1:09-cv-003479 -CCB)
YURI I. STOYANOV,
Plaintiff - Appellant,
V.
RAY MABUS, Secretary of the Navy United States
Department of the Navy; JAMES H. ICING,
Individually and in his Official Capacity as the Head
of Code 70 Carderock Division Naval Surface Warfare
Center; KEVIN M. WILSON, Individually and in his
Official Capacity as the Head of Code 74 Carderock
Division Naval Surface Warfare Center; DAVID L.
MAYO, Individually and in his Official Capacity as the
Head of Code 743 Carderock Division Naval Surface
Warfare Center; MARK THOMAS, Individually and in
his Official Capacity as EEO Chief and Commander of
7

Code 00 Carderock Division Naval Surface Warfare
Center; DAVID CARON, Individually and in his
Official Capacity as Assistant Counsel Code 39
Carderock Division Naval Surface Warfare Center;
JACK K. TEMPLETON, Individually and in his
Official Capacity as Head of Code 20 Carderock
Division Naval Surface Warfare Center; CATHERINE
L. KESSMEIER, Individually and in her Official
Capacity as Counsel of Code 004 Carderock Division
Naval Surface Warfare Center; KENETH It
GOLDMAN, Individually and in his Official Capacity
as Head of Code 71 Carderock Division Naval Surface
Warfare
Center; KENNETH I. FORMAN,
Individually and in his Official Capacity as Head of
Code 73 Carderock Division Naval Surface Warfare
Center; SAM HAN, Individually and in his Official
Capacity as Head of Code 74 Carderock Division Naval
Surface Warfare Center; CIRO M1NOPOLI,
Individually and in his Official Capacity as Head of
Code 75 Carderock Division Naval Surface Warfare
Center; WILLIAM SNYDER, Individually and in his
Official Capacity as Head of Code 20 Carderock
Division Naval Surface Warfare Center; M. WADE,
Individually and in his Official Capacity as Head of
Code 21 Carderock Division Naval Surface Warfare
Center; M. J. BABERICH, Individually and in her
Official Capacity as Head of Code 64 Carderock
Division Naval Surface Warfare Center; BRUCE
CROCK, Individually and in his Official Capacity as
Head of Code 741 Carderock Division Naval Surface
Warfare Center; WILLIAM MARTIN, Individually
and-in 14s Official Capacity as Head of Code 722
Carderock Division Naval Surface Warfare Center;
CHARLES it REEVES, Individually and in his Official
Capacity as Product Area Director of Code 09
8

Carderock Division Naval Surface Warfare Center; L.
MURPHY, Individually and in his Official Capacity as
Head of Code 22 Carderock Division Naval Surface
Warfare Center; DAVID WINTER, DR Former
Secretary of the Navy U.S. Department of the Navy;
GARY ROGI-IEAD, Individually and in his Official
Capacity as Chief of Navy Operations; ARCHER M.
MACY, Individually and in his Official Capacity as
Commander of NSWC; PAUL H. SULLIVAN,
Individually and in his Official Capacity as
Commander of SEA 00; JEFFERSON BEAUREGARD
SESSIONS Ill, Attorney General; ROBERT K. HUR,
U. S. Attorney, U.S. Attorney; MARGARET LONG,
Individually and in her Official Capacity as
Administrative/Technical Specialist Code 39; GARY M.
JEBSEN, Individually and in his Official Capacity as
the Head of Code 70; GARTH JENSEN, individually
and his Official Capacity as Deputy Head of Code Z0;
MIKE-MULLEN, Individually and in his Official
Capacity as Chief of Naval Operations; ELAINE B.
MCKINNBY, Individually and in her Official Capacity
as Deputy EEC) Chief Code 004; WAYNE WEIKERT,
Individually and in her Official Capacity as the Head
of Code 70; CHRIS 0. MEYER, Individually and in her
Official Capacity as EEC) Chief and Commander of
Code 00; JEROME CARRUBBA, Individually and in
his Official Capacity as Security Manager of Code 03;
NEACLESA KNDERSON, Individually and in her
Official Capacity as general Counsel of Code 04;
JOSEPH VIGNALLT, Individually and in his Official
Capacity as the Head of Code 7204; PAUL SHANG,
Individually and in his Official Capacity as the Head
of Code 707; SUN HAN, Individually and in his
Official Capacity as the Head of Code 74; ROBERT
WINGO, Individually and in his Official Capacity as
9

the Head of Code 7502; ROBERT KOLLAPS,
Individually and in his Official Capacity as the Head
of Code 7102; JAMES SHANNON, Individually and in
his Official Capacity as Chief of NSWC; KEVIN M.
MCCOY, Individually and in his Official Capacity as
Chief of NAVSEA; GARY ROIJGIIHEAD, Individually
and in his Official Capacity as Chief of Naval
Operations; BARBARA REDINGER, Individually and
in her Official Capacity as Security Manager Code 40;
B. CAHILL, Ms., Individually and in her Official
Capacity as Head of Workforce Relations Branch Code
39,
Defendants - Appellees.
Appeal from the United States District Court for the
District of Maryland, at Baltimore. Catherine C.
Blake, District Judge. (l:09-cv-03479-CCB)
Submitted: September 26, 2019
Decided
September 30, 2019
2

Before NIEMEYER and KEENAN, Circuit Judges,
and HAMILTON, Senior Circuit Judge.
Dismissed by unpublished per curiam opinion.
Yuri J. Stoyanov, Appellant Pro Se
Unpublished opinions are not binding precedent in
this circuit.
3

PER CURIAM:
Yuri I. Stoyanov seeks to appeal the district court’s
orders granting Defendants’ motion to consolidate
Stoyanov’s
several employment discrimination
lawsuits against Defendants and denying Stoyanov’s
subsequently filed motion to reconsider consolidation
and for sanctions. This court may exercise jurisdiction
10

only over final orders, 28 U.S.C. § 1291 (2012), and
certain interlocutory and collateral orders, 28 U.S.C. §
1292 (2012);Fed. R. Civ. P.54(B);-Cohen v.-Beneficial
Indus. Loan Corp. 337 U.S. 541, 545-6, (1949). Because
the underlying litigation remains ongoing, the orders
Stoyanov seeks to appeal are neither final orders nor
appealable interlocutory or collateral orders.
Accordingly, we dismiss the appeal for lack of
jurisdiction. We dispense with oral argument because
the facts and legal contentions are adequately
presented in the materials before this court and
argument would not aid the decisional process.
DISMISSED
APPENDIX .3

: District judge Blake’s 4/16/19 Order
Case l:09-cv-03479-CCB Document 30 Filed 04/16/19
Page 1 of 1
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
YURI J. STOYANOV
v. Civil No, CCB-09-3479
RAY MABUS, SECRETARY OF THE NAVY, et al.
ORDER
Various motions are pending and have been reviewed.
My rulings follow.
1.
the defendants’ motion to consolidate (ECF No.
27) is Granted. The plaintiffs remaining related
employment discrimination cases, Civil Action
Nos. 11-739, 12-2458, 13-141, 13-142, and 143262, are hereby reactivated and consolidated
with this case, Civil Action No.CCB-09-3 479;
2.
the defendants’ motion for extension of time
(ECF No. 28) is Granted;
the plaintiffs motion to investigate fraud (ECF
3.
No. 20), motion for sanctions (ECF No. 26), and
11

second motion for sanctions (ECF No. 29) are
Denied; and
4 the Clerk, shall send copies of this Order to
the plaintiff and counsel of record. So
Ordered this 16th day of April, 2019.
/s/
Catherine C. Blake/ United States District Judge
APPENDIX 4

: District judge Blake’s 4/30/19 Order
Case l:09-cv-03479-CCB Document 32 Filed 04/30/19
Page 1 of 8
District judge Blake’s 4/30/19 Order was handwritten
“denied” on the front page of Plaintiffs 3/25/19 motion
to reconsider and rescind 4/16/19 order Document 31:
PLAINTIFF’S MOTION TO RECONSIDER AND
RESCIND THE 4/16/19 ORDER AND TO ISSUE
NEW ORDER TO RESCIND CONSOLIDATION OF
LAWSUITS AND TO GRANT PLAINTIFF’S
MOTIONS TO INVESTIGATE RECURRING MAIL
FRAUD AND WIRE FRAUD COMMITTED BY
DEFENDANTS AND TO IMPOSE SANCTIONS
AGAINST DEFENDANTS
APPENDIX 5

: Petitioner’s 1/18/19 Motion to Investigate Fraud
Dr. YURI J. Stoyanov, Plaintiff
vs.
Case No. CCB-09-3479
MR. RAY MABUS, Secretary of the Navy, et al.,
Defendants
...oOo...
PLAINTIFF’S MOTION TO INVESTIGATE FRAUD
AND
TO
COMPEL
DEFENDANTS’

REPRESENTATIVE TO ACCEPT AND SERVE WITH
12

SUMMONS DEFENDANTS KESSMEIER. CARON.
HAN. CROCK. FORMAN. GOLDMAN. WILSON.
MARTIN. WADE, SNYDER. BABERICH, REEVES.
MURPHY. THOMAS. TEMPLETON. MAYO
Plaintiff, Dr. Yuri Stoyanov, files this Motion to
Investigate Fraud and to Compel Defendants’
representative to accept and serve with summons
Defendants KESSMEIER. CARON. HAN. CROCK.
FORMAN. GOLDMAN. WILSON. MARTIN. WADE.
SNYDER.
BABERICH.
REEVES.
MURPHY.
THOMAS. TEMPLETON. MAYO for the following
cause:
1. Filing of this Motion was predicated by
Defendants KESSMEIER. CARON. HAN. CROCK.
FORMAN. GOLDMAN. WILSON. MARTIN. WADE.
SNYDER.
BABERICH.
REEVES.
MURPHY.
THOMAS, failure to receive summons and complaint
after these documents were timely sent via US Postal
Service certified mail with restricted delivery to the
same address, namely, their last known work address.
On January 5, 2019 Plaintiff timely sent via US Postal
Service first class certified mail envelopes with
Summons and Complaint to each of these Defendants
at the Carderock division of NSWC, 9500 McArthur
Boulevard, West Bethesda, MD 20817.
2. Attached are the copies of the U. S. Postal
Service tracking and delivery record to the last known
address of work for Defendant Kessmeier, her
subordinate Defendant Caron, and Defendants Han,
Crock, Forman, Goldman, Wilson, Martin, Wade,
Snyder, Baberich, Reeves, Murphy, Thomas, Mayo,,
Templeton. The U. S. Postal Service website usps.com
tracking and confirmation of delivery data for
Defendant Templeton shows that the certified mail
with restricted delivery 70181830000206342902 was
13

delivered to Bethesda, MD 20817 post office on
January 7, 2019. The signature of an agent on the
green card (PS Form 3811/return receipt) certified
mail shows that on January 7, 2019 the mail was
pickup by the agent Cherrelle Rowe on behalf of
Defendant Templeton -70181830000206342902 and, on
January 8, 2019 on behalf of Defendant Thomas 70181830000206342919, while the other agency agent
who failed to print his name on green cards for other
Defendants, signed on January 8 and 9, 2019 with the
same work address/the Carderock Division of NSWC,
9500 McArthur Boulevard, West Bethesda, MD 20817.
The agent, who failed to print his name in the box on
PS Form 3811, only signed and marked that he is an
agent, and is most likely who with Defendant
Kessmeier and Defendant Caron tampered with
entries in the official US postal service mail tracking
records for all defendants, except Defendant
Templeton, with the same address as Defendant
Kessmeier. For defendant Templeton, the tracking
mail record was not tampered with since it was signed
for and received on 1/7/2019 by different agent,
namely, Cherrelle Rowe, who printed her name in the
box on PS Form 3811/return receipt. This is not the
first time the mail fraud and wire fraud were
committed by
Defendant Kessmeier with her
assistants Defendant Caron and others to harm
Plaintiff, see the US District Court records for prior
Plaintiffs cases, such as DKC -07-1985 and Plaintiffs
Petition for Writ of Certiorari to US Supreme Court
No. 17-174.
3. Exhibit A shows that for Defendant Templeton
both the green card/ return receipt record and the US
mail tracking record were received by Plaintiff and
each of these records confirm the same fact, namely,
14

that Defendant Templeton received the certified mail
at the same address as that of Defendant Kessmeier,
namely, the last known work address at zip 20817/the
Carderock Division of NSWC, 9500 McArthur
Boulevard, West Bethesda, MD 20817. Thus, on
January 7, 2019 the mail tracking entries show that
the mail was delivered to Bethesda, Maryland, 20817
and that on January 8, 2019 the agent Cherrelle Rowe
signed and marked as agent on the green card for
Defendant Templeton.
4.
Exhibit B shows that for Defendant Mayo no
green card/ return receipt was received by Plaintiff,
even though for all Defendants the green card/return
receipt was attached to each envelope. Most likely the
green card was signed by the same agent Cherrelle
Rowe as for Defendant Templeton, since the US mail
tracking
record
for
Defendant
Mayo70181830000206342728 shows the same time of
delivery, namely, January 7, 2019 at the same address
as that of Defendant Kessmeier, namely, the last
known work address at zip 20817/the Carderock
Division of NSWC, 9500 McArthur Boulevard, West
Bethesda, MD 20817. Thus, on January 7, 2019 the
mail tracking entries show that the mail was delivered
to Bethesda, Maryland, 20817 to both Defendant Mayo
and Defendant Templeton.
5.
In contrast to the above mail records for
Defendant Templeton and Defendant Mayo, the mail
tracking records were tampered with for the other
defendants at Bethesda, 20718, to harm Plaintiff, to
dismiss the case by fraud, specifically, entries in the
mail tracking records that show that the mail was
delivered to Bethesda, 20817 were intentionally
deleted in tracking records for defendants who had the
same address as that of Defendant Kessmeier.

15

Specifically, see 1/18/19 Plaintiffs Affidavits of Service
with the official US Postal Service records for
Defendants Kessmeier, Caron, Han, Crock, Forman,
Goldman, Wilson, Martin, Wade, Snyder, Baberich,
Reeves, Murphy, Thomas.
6. The mail fraud committed by Defendant
Kessmeier with her assistants Defendant Caron and
others is obvious to any reasonable mind. Those
defendants who had address different from that of
Defendant Kessmeier/Bethesda, MD 201817, received
their mail with summons and complaint within five
days from the day of sending, i.e. by January 10, 2019
from the day of sending, January 5, 2019. Specifically,
the official US Postal Service mail tracking records
show that the mail was delivered to defendants
Winter, Roughead, Sullivan, Macy, Hur and Whitaker
promptly, within five days from the same day of
sending, 1/5/19 for all of defendants.
7. Additional evidence of fraud committed by
Defendant Kessmeier with her assistants Defendant
Caron and others is in Exhibits C where green
card/return receipt entries contradict those entries in
the mail tracking records for Defendants Caron,
Wilson, Crock, Minopoli who had the same address as
Defendant Kessmeier. For these defendants Plaintiff
received green card/return receipts that show that an
agent signed and received mail on their behalf at the
Bethesda, MD/20817 on January 8 and 9, 2019,
however, these entries were deleted from the mail
tracking records for these defendants to falsely show
that the mail for these defendant were never at the
Bethesda/20817 or is still in transit, as of January 18,
2019 i.e. now for two weeks from the day of sending.
8.
For the remaining defendants, See Exhibit D,
such as Plaintiffs affidavit of service for Defendants
16

Snyder, Baberich, Martin, Reeves, Kessmeier, Forman,
Goldman, Han, Murphy, who had the same address as
defendant Kessmeier /Bethesda/20817, no green cards
were received by Plaintiff and the mail tracking
records were also tampered with and modified to
falsely show that the mail was not at Bethesda,
MD/20817 or is still in transit, since January 5, 2019.
The mail fraud and wire fraud were done
9.
intentionally by Defendants Kessmeier/Caron to harm
Plaintiff, to dismiss the case by fraud using fabricated
mail tracking records that show Plaintiff failed to
serve on defendants with summons and complaint by
dateline of January 21, 2019.
Note that on December 5, 2018 Plaintiff filed
10.
“motion to issue decision on Plaintiffs October 31,
2018 “Motion to Amend the Case” and to amend the
September 21, 2018 Order”. On December 21, 2018
Plaintiffs motion of 12/5/18 was granted and the time
to serve on defendants with summons and complaint
was extended to January 21, 2019, however, only on
December 27, 2018 Order was issued for the Clerk of
the Court to send summonses with court seal to
Plaintiff. The envelope from the Clerk’s office was
received on January 3, 2019 and on January 5, 2019
Plaintiff timely sent summonses and complaint to each
defendant in separate envelopes to their last known
work address.
Defendants Kessmeier with her assistants
11.
Defendant Caron and others were aware of the
dateline of January 21, 2019 set in the December 21,
2018 Order for Plaintiff to serve on defendants, and,
accordingly, to harm Plaintiff, committed intentional
mail fraud and wire fraud, that falsely show that
defendants at Bethesda, MD/20817 were still nor
served because the mail was never at Bethesda. MD or
17

is still in transit since January 5, 2019. They missed to
commit fraud with the mail records for Defendant
Templeton and Defendant Mayo, as explained above.
12. Exhibits A, B, C and D show that the certified mail
for all defendants was processed on the same day,
namely, January 6, 2019 at the same postal sorting
facility at Gaithersburg, MD 20898 and then the trail
i.e. tracking information for Defendants Kessmeier,
Caron, Han, Crock, Forman, Goldman, Wilson, Martin,
Wade, Snyder, Baberich, Reeves, Murphy, Thomas
was tampered with to delete that on January 7, 2019
mail for them was delivered to Bethesda, MD 20817,
pick up by agent, delivered to Carderock division of
NSWC, previewed by Defendant Kessmeier with her
subordinate Defendant Caron, and then the mail for
eleven defendants was sent back to Plaintiff Dr. Yuri
Stoyanov in Fulton/20759 on January 16, 2019 while
the mail for the remaining defendants, namely, Caron,
Wilson, Crock, Thomas was intentionally fraudulently
stalled, to falsely show to be “in-transit” and the
tracking records were intentionally tampered with (to
delete that it was already on January 7, 2019 at
Carderock division/Bethesda, MD 20817 compare
Exhibits A and D) to falsely show that it is still at
postal sorting facility at Gaithersburg, MD 20898 or
other postal facilities, for about two weeks as of
January 18, 2019.
13. The intentional fraud was apparently committed
by Defendant Kessmeier in conspiracy with Defendant
Caron and, the agent, who did not print his name on
green cards, who daily picks up mail for Carderock
division at the publicly accessible post office in
Bethesda, MD 20817 and delivers it to the post office
with the same zip/20817 but located inside the
guarded campus of the Carderock Division in
18

Bethesda, MD 20817. Comparing US postal service
tracking records, see Exhibit D (for Caron, Kessmeier)
vs. Exhibit A (for Templeton) one can see fraud
committed by Defendants Kessmeier and Caron with
their assistant/agent who intentionally failed to print
his name on green cards, namely, while Templeton’s
mail with Summons and Complaint signed and
received by agent Cherrelle Rowe at the inner post
office/ Bethesda, MD 20817 on January 8, 2019 at the
same time tracking record was tampered with and
modified to show fraud that the first class mail for
Kessmeier, Caron, Han, Crock, Forman, Goldman,
Wilson, Martin, Wade, Snyder, Baberich, Reeves,
Murphy, Thomas is still (since January 5, 2019 to this
day January 18, 2019 i.e. for two weeks) at the postal
sorting facility in Gaithersburg, MD 20898 or other
postal facilities. Fraud committed by Defendants
Kessmeier and Caron with their agent who did not
print his name on green cards is obvious to any
reasonable mind, tampered tracking records show that
the first class mail is still i.e. for two weeks at the US
postal sorting facility, while postal record/receipt of
January 5, 2019 explicitly stated that “Expected
Delivery Day, Monday 1/7/19 or Tuesday, 1/8/19”.
Defendant Kessmeier with her assistants Defendant
Caron and others committed mail fraud and wire fraud
to obstruct justice by obvious violations of laws, postal
regulations and fraud with the official US Postal
Service records.
14. Based on the fact that Defendants Kessmeier and
Caron are a very dangerous criminals, who since 2002
intentionally misrepresented facts, deliberately
committed fraud, tampered with evidence, witnesses,
obstructed official process and intentionally committed
perjuries, for more information see Plaintiff Dr. Yuri
19

Stoyanov’s Complaint Case No. l:07-cv-01985-DKC
and my affidavits and my brother Dr. Aleksandr
Stoyanov’ affidavits at MSPB records, EEOC records
since 2002 and in the US Federal Court records, for
District of Maryland, since 2005), Defendant Caron
intentionally continues to escalate fraud with
Defendant Kessmeier and others to obstruct justice.
15. Note that in prior lawsuits, Cases No. l:07-cv01953-DKC and DKC-07-1985, the same pattern of
mail fraud, wire fraud and the obstruction of justice
was committed by Defendants Kessmeier and Caron
with impunity that is why they continue to escalate
fraud in the instant case. They are defendants and are
being sued by Plaintiff to recover damages committed
by Kessmeier, Caron and other defendants.
16.
Attachment is the copy of the US Postal Service
certified mail receipts.
Plaintiff also served on
January 7. 2019 Robert Hur the United States
Attorney for the District of Maryland as required. The
United States Attorney for the District of Maryland
will represent the Defendants in this case.
17.
Accordingly, Plaintiff respectfully submits
Motion to Investigate Fraud and to Compel
Defendants’ representative to waive formal service for
Defendants Han, Crock, Forman, Goldman, Wilson,
Martin, Wade, Snyder, Baberich, Reeves, Murphy,
Thomas, by informing them that the civil action was
initiated in this court against the Defendants in their
official capacity and individually.
Wherefore, in consideration of the above,
Plaintiff respectfully requests to grant Plaintiffs
Motion to Investigate Fraud and to Compel
Defendants’ Representative to accept and service with
summons Defendants Kessmeier, Caron, Han, Crock,

20

Forman, Goldman, Wilson, Martin, Wade, Snyder,
Baberich, Reeves, Murphy, Thomas.
Respectfully submitted
/s/
Dr. Yuri Stoyanov, 7560 Pindell School Rd, Fulton,
MD 20759
Certificate of Service
I hereby certify that on the _18 day of _January 2019,
a copy of the Plaintiffs Motion to Investigate Fraud
and to Compel Defendants’ Representative to Accept
and Serve with Summons Defendants KESSMEIER.
CARON. HAN. CROCK. FORMAN. GOLDMAN.
WILSON. MARTIN. WADE. SNYDER. BABERICH.
REEVES. MURPHY. THOMAS and proposed Order
was sent to the following via:
First Class Mail to the following:
Robert Hur/Kelly Marzullo
Assistant United States Attorney
36 South Charles Street
Fourth Floor
Baltimore, Maryland 21201
Or Fax (410) 962-9947

Hand Delivered or
First Class Mail to the following:
Clerk of the Court
United States District Court
Southern Division
6500 Cherrywood Lane
Greenbelt, Maryland 20770

January 18. 2019 /s/
Date
Dr. Yuri Stoyanov
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Dr. YURI J. Stoyanov, Plaintiff
:
vs.
Case No. CCB-09-3479
MR. RAY MABUS, Secretary of the Navy, et al.,
Defendants
...oOo...
Order

21

Upon consideration of Plaintiffs Motion to Investigate
Fraud and to Compel Defendants’ representative to
Accept

and

Serve

with

Summons

Defendants

Kessmeier, Caron, Han, Crock, Forman, Goldman,
Wilson, Martin, Wade, Snyder, Baberich, Reeves,
Murphy, Thomas, Templeton, Mayo and for good cause
shown, it is hereby ORDERED:
1. Plaintiffs Motion to Investigate Fraud and to
Compel Defendants’ Representative to Accept and
Serve with

Summons

Defendants

Kessmeier,

Caron, Han, Crock, Forman, Goldman, Wilson,
Martin, Wade, Snyder, Baberich, Reeves, Murphy,
Thomas, Templeton, Mayo in this case SHOULD
BE and hereby IS GRANTED;
2. Robert Hur, the Defendants’ Representative and
the US Attorney for the District of Maryland, is
Ordered to

Investigate Fraud committed by

Defendant Kessmeier with her assistant Defendant
Caron and others;
3. Defendants’ Representative is ORDERED to accept
and serve with summons Defendants Kessmeier,
Caron, Han, Crock, Forman, Goldman, Wilson,
Martin, Wade, Snyder, Baberich, Reeves, Murphy,
Thomas.
22

Date:

Catherine C. Blake/ United States

District Judge
APPENDIX 6

: Petitioner’s 3/25/19 Motion for Sanctions
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Dr. YURI J. Stoyanov,
Plaintiff
vs.
Case No. CCB-09-3479
MR. RAY MABUS, Secretary of the Navy, et al.,
Defendants
0O0...

PLAINTIFF’S MOTION FOR SANCTIONS AND
REBUTTAL OF DEFENDANTS FRAUDULENT
RESPONSE OF 3/13/19 TO THE 1/18/19 MOTION TO
INVESTIGATE FRAUD AND TO COMPEL
DEFENDANTS’ REPRESENTATIVE TO ACCEPT
AND SERVE WITH SUMMONS DEFENDANTS
KESSMEIER. CARON. HAN. CROCK. FORMAN.
GOLDMAN. WILSON. MARTIN. WADE, SNYDER.
BABERICH,
REEVES.
MURPHY.
THOMAS.
TEMPLETON. MAYO
1. In this pro se case the Plaintiff, DR. YURI J.
STOYANOV
is
in
receipt
of Defendants
representatives Hur/Marzullo responses of March 13
and 18, 2019 to Plaintiffs 1/18/19 Motion to
Investigate Fraud and to Compel Defendants
Representative to Accept and Serve with Summons
and complaints 15 defendants in Bethesda, MD.
20817. Hur/Marzullo’s responses are fraudulent and
were submitted to cover-up the recurring Mail Fraud
and Wire Fraud committed by Defendant Kessmeier
with her assistants Defendant Caron and others.
23

Instead of investigating Federal crime committed by
Defendant Kessmeier with Defendant Caron and
others,
Hur/Marzullo
intentionally
submitted
deliberate
misrepresentations
and
baseless
accusations against Plaintiff and demanded in their
unsupported responses to deny by fraud Plaintiffs
1/18/19 Motion. Contrary to Hur/Marzullo’s fraud and
baseless accusations, direct evidence in the court
records shows that Plaintiff timely served all
defendants listed in the 1/18/19 Motion to Investigate
Fraud pursuant to the 12/21/18 Order to serve on
defendants by 1/21/19 via US Postal Service certified
mail with restricted delivery. Because Hur/Marzullo’s
responses are intentionally fraudulent, unsupported
and designed to deceive the court and to harm
Plaintiff, Plaintiff respectfully requests to impose
sanctions against Defendants for willful and persistent
fraud, to dismiss Hur/Marzullo’s responses of 3/13/19
and 3/18/19, to deny their unsupported demand and to
grant Plaintiffs 1/18/19 Motion to Investigate Fraud.
2. Direct evidence in the court records show that
Defendants representative Hur/Marzullo submitted on
3/13/19 intentionally fraudulent response to Plaintiffs
1/18/19 Motion to Investigate Fraud and to Compel
Defendants’ representative to accept and serve with
summons Defendants KESSMEIER. CARON. HAN.
CROCK. FORMAN. GOLDMAN. WILSON. MARTIN.
WADE. SNYDER. BABERICH, REEVES. MURPHY.
THOMAS. TEMPLETON. MAYO and respectfully
requests to grant Plaintiffs instant Motion to Impose
Sanctions against the defendants and the 1/18/19
Motion to Investigate Fraud for the following cause:
3.Defendants representative Hur/Marzullo in
their 3/13/19 response deliberately misrepresented
facts listed in Plaintiffsl/18/19 Motion to Investigate
24

Fraud and, inserted intentional fraud in their response
that “there is no evidence of fraud and no legal or
factual basis for relieving Plaintiff of his responsibility
to effect service on the unserved defendants”, see i.d.
paragraph 6, instead of conducting criminal
investigation of Mail Fraud and Wire Fraud
committed by Defendant Kessmeier in conspiracy with
her assistants Defendant Caron and others identified
in Plaintiffs 1/18/19 motion, accused Plaintiff of
failure to serve with summons and complaint
Defendant Kessmeier and other defendants in order to
cover-up Defendant Kessmeier’s recurring Mail fraud
and Wire Fraud committed in January 2019 and in
prior years to harm Plaintiff, to deceive the court and
by fraudulent attempt to dismiss lawsuits against
Kessmeier, Caron and other defendants maliciously
tampering with the official US Postal Service mail
records, such as the usps mail tracking records and US
Postal Service certified mail green card/return receipts
by directing and using their agent to commit criminal
acts of Mail Fraud in January 2019. Similar criminal
acts of malicious mail fraud were also committed in
April 2014.
4.Because Mail Fraud (18 U.S.C. section 1341)
and Wire Fraud (18 U.S.C. section 1343) are both
federal crimes and were committed not only in
January 2019 but also in prior years such as in April
2014 and in 2013 and 2008 to harm me and my
brother, it is obvious to any reasonable mind that the
January 2019 Mail Fraud and Wire Fraud were very
elaborate and sophisticated scheme committed in
furtherance of Defendant Kessmeier’s fraudulent
scheme she set up since 2002.
1. A scheme existed for the purpose of
committing fraud; to harm, to defraud This
25

scheme involved the following elements: my
brother Dr. Aleksandr Stoyanov and me, Dr.
Yuri Stoyanov;
2. Defendant Kessmeier with her assistants
Defendant Caron and others knowingly and
willfully participated in the scheme since
2002, specifically, see the most recent Mail
Fraud and Wire Fraud of January 2019, also
Mail Fraud and Wire Fraud of April 2014,
2013, 2008, etc.;
3. Kessmeier with her assistants Caron and
others used a public mail service, such as, an
agent in their service, the United States
Postal Service and the Wire Fraud via USPS
website electronic/wire communications to
further the scheme.
5. Thus, all essential elements of the Federal crime of
mail fraud and wire fraud were involved.
6. Indeed, as stated in Plaintiffs 1/18/19 Motion to
Investigate Fraud and to Compel Defendants
Representative to serve with summons and complaint
the 15 defendants at Bethesda, MD 20817 the filing of
Plaintiffs 1/18/19 Motion to Investigate Fraud was
predicated by Defendants KESSMEIER. CARON.
HAN. CROCK. FORMAN. GOLDMAN. WILSON.

MARTIN. WADE. SNYDER. BABERICH. REEVES.
MURPHY. THOMAS, failure to receive summons and
complaint after these documents were timely sent via
US Postal Service certified mail with restricted
delivery to the same address, namely, their last known
work address. On January 5, 2019 Plaintiff timely sent
via US Postal Service first class certified mail
envelopes with Summons and Complaint to each

26

Defendants at the Carderock division of NSWC, 9500
McArthur Boulevard, West Bethesda, MD 20817.
7. Attached to Plaintiffs 1/18/19 motion were originals
of the U. S. Postal Service certified mail receipts and
tracking and delivery records to the last known
address of work for Defendant Kessmeier, her
subordinate Defendant Caron, and Defendants Han,
Crock, Forman, Goldman, Wilson, Martin, Wade,
Snyder, Baberich, Reeves, Murphy, Thomas. Mail
tracking and delivery records were tampered with and
show the same pattern of mail fraud and wire fraud as
was committed in April 2014, namely, the official US
Postal Service records were intentionally tampered
with to delete entry of 1/7/19 or 1/8/19 delivery of mail
with summons and complaint to defendants in
Bethesda, MD 20817.
8. Except for Defendant Templeton and Defendant
Mayo, whose usps mail tracking records were not
tampered with because different agent on January 7,
2019 picked their mail and signed and printed her
name Cherrelle Rowe, the official US Postal Service
mail tracking records were intentionally tampered
with to delete the entry of delivery of mail to Bethesda
MD 20817 on January 7, 2019 or January 8, 2019 to
the remaining 15 out of 17 defendants at Bethesda,
MD 20817 committed by Defendant Kessmeier in
conspiracy with her assistants Defendant Caron and
their agent who failed to print his name on green
cards/return receipts.
9. The U. S. Postal Service website usps.com mail
tracking and confirmation of delivery data for
Defendant Templeton shows that the certified mail
with restricted delivery 70181830000206342902 was
delivered to Bethesda, MD 20817 post office on
January 7, 2019. The signature of an agent on the
27

green card (PS Form 3811/return receipt) certified
mail shows that on January 7, 2019 the mail was
picked up by the agent Cherrelle Rowe on behalf of
Defendant Templeton -70181830000206342902 and, on
January 8, 2019 on behalf of Defendant Thomas 70181830000206342919, while the other agency agent
who failed to print his name on green cards for other
Defendants, signed on January 8 and 9, 2019 with the
same work address/the Carderock Division of NSWC,
9500 McArthur Boulevard, West Bethesda, MD 20817.
The agent, who failed to print his name in the box on
PS Form 3811, only signed and marked that he is an
agent, and is most likely who in conspiracy with
Defendant Kessmeier and her assistant Defendant
Caron tampered with entries in the official US postal
service mail tracking records for all defendants, except
Defendant Templeton and Defendant Mayo since it
was signed for and received on 1/7/2019 by different
agent, namely, Cherrelle Rowe, who printed her name
in the box on PS Form 3811/return receipt.
10. Exhibit A, attached to the 1/18/19 motion, shows
that for Defendant Templeton both the certified mail
green card/ return receipt record and the US mail
tracking record were received by Plaintiff and each of
these records confirm the same fact, namely, that
Defendant Templeton received the certified mail at the
same address as that of Defendant Kessmeier, namely,
the last known work address at Carderock Division of
NSWC, 9500 McArthur Boulevard, West Bethesda,
MD 20817.
11. Exhibit B shows that for Defendant Mayo no green
card/ return receipt was received by Plaintiff by
1/18/19, even though for all Defendants the green
card/return receipt was attached to each envelope. The
US mail tracking record for Defendant Mayo28

70181830000206342728 shows the same time of
delivery, namely, January 7, 2019 at the same address
as that of Defendant Kessmeier. Thus, on January 7,
2019 the mail tracking entries show that the mail was
delivered to Bethesda, Maryland, 20817 to both
Defendant Mayo and Defendant Templeton.
12. In contrast to the above mail records for Defendant
Templeton and Defendant Mayo, the mail tracking
records were tampered with for the other 15
defendants at Bethesda, 20817, to harm Plaintiff, to
dismiss the case by fraud, specifically, entries in the
mail tracking records that show that the mail was
delivered to Bethesda, 20817 for Defendants
Kessmeier, Caron, Han, Crock, Forman, Goldman,
Wilson, Martin, Wade, Snyder, Baberich, Reeves,
Murphy, Thomas were intentionally deleted by
Defendant Kessmeier in conspiracy with her assistant
Defendant Caron and their agent who failed to print
his name on green cards/return cards.
13. The mail fraud committed by Defendant Kessmeier
with her assistant Defendant Caron and others is
obvious to any reasonable mind. Those defendants who
had address different from that of Defendant
Kessmeier/Bethesda, MD 20817, received their mail
with summons and complaint within five days from
the day of sending, i.e. by January 10, 2019 from the
day of sending, January 5, 2019. Specifically, the
official US Postal Service mail tracking records show
that the mail was delivered to defendants Winter,
Roughead, Sullivan, Macy, Hur and Whitaker
promptly, within five days from the day of sending,
1/5/19 for all of defendants.
14. Additional evidence of fraud committed by
Defendant Kessmeier with her assistant Defendant
Caron and others is in Exhibits C where green
29

card/return card entries contradict those entries in the
mail tracking records for Defendants Caron, Wilson,
Crock, Minopoli who had the same address as
Defendant Kessmeier. For these defendants Plaintiff
received green card/return receipts that show that an
agent signed and received mail on their behalf at the
Bethesda, MD/20817 on January 8 and 9, 2019,
however, these entries were deleted from the mail
tracking records for these defendants to falsely show
that the mail for these defendant was not delivered at
the Bethesda/20817 or is still in transit, as of January
18, 2019 i.e. for two weeks from the day of sending, see
Plaintiffs 1/18/19 affidavits of service for these
defendants with attached return receipts and usps
mail tracking records.
15. Similarly, in April 2014, the same pattern of mail
fraud and wire fraud was committed by Defendant
Kessmeier with her assistant Defendant Caron and
their agent Jim Lam, see Plaintiffs 4/18/14 motion in
Case No. l:07-cv-01985-DKC:
on April 4, 2014
Plaintiff timely sent via US Postal Service certified
mail envelopes with Summons and Complaint to each
of these Defendants [Defendants Kessmeier, Caron,
Fowler, Crock, Forman, Goldman and Wilson] at the
Carderock division of NSWC, 9500 McArthur
Boulevard, West Bethesda, MD 20817 and, except for
Kessmeier, who is the criminal ring leader, they failed
to receive summons and complaint after these
documents were timely sent via US Postal Service
certified mail to the same address, namely, their last
known work address. Attached to Plaintiffs 4/18/14
motion were the originals of the U. S. Postal Service
certified mail receipts and the mail tracking and
confirmation of delivery records to the last known
address of work for Defendants show that for example
30

in Exhibits A that Defendant Kessmeier the certified
mail 70133020000163127512 was delivered to
Bethesda, MD 20817 post office on April 7, 2014 and
was available for pickup, however, since April 7, 2014
to the day the motion was filed, namely April 18, 2014,
she intentionally refused to pick the Summons and
Complaint. The signature of James Lam on the green
Form
3811)
certified
mail
card
(PS
70133020000163127512 shows that on 4/7/14 the mail
was picked up by James Lam/agent on behalf of
Defendant Kessmeier and other Defendants with the
same work address/Carderock Division of NSWC, 9500
McArthur Boulevard, West Bethesda, MD 20817.
James Lam failed to mark the box on PS Form 3811
that he was an agent, and, failed to sign on the green
cards (PS Form 381 D/certified mail return cards that
were addressed to the remaining Defendants at
Carderock Division, namely, Defendant Caron,
Defendant Kessmeier, Defendant Fowler, Defendant
Crock, Defendant Forman, Defendant Goldman,
Defendant Wilson.
16. In the 4/18/14 motion Exhibits A, B, C and D
show that the certified mail for defendants Kessmeier,
Wilson, Goldman and Fowler was processed on the
same day, namely, April 6, 2014 at the same postal
sorting facility at Gaithersburg, MD 20898 and then
the trail i.e. tracking information for Defendants
Wilson, Goldman and Fowled was tampered with to
delete that on April 7, 2014 mail for them was
delivered to Bethesda, MD 20817, picked up by agent
Lam, delivered to Carderock division of NSWC,
previewed by Defendant Kessmeier with her assistant
Defendant Caron, and then the mail records were
tampered with to delete the 4/7/14 delivery to
Bethesda, MD, mail for Defendant Wilson and
31

Defendant Goldman was returned to Plaintiff Dr. Yuri
Stoyanov in Fulton on April 15, 2014 while the mail
for the remaining defendants, namely, Caron, Fowler,
Forman, Crock was intentionally fraudulently stalled
and the mail tracking records were intentionally
tampered with (to delete that it was already on April
7, 2014 at Carderock division/Bethesda, MD 20817
compare Exhibits A and D) to falsely show that it was
still at postal sorting facility at Gaithersburg, MD
20898, for about two weeks as of April 18, 2014.
17. The intentional mail fraud and wire fraud
were committed by Defendant Kessmeier in conspiracy
with Defendant Caron and James Lam, the agent, who
daily picked up mail for Carderock division at the
publicly accessible post office in Bethesda, MD 20817
and delivered it to the post office with the same
zip/20817 but located inside the guarded campus of the
Carderock Division in Bethesda, MD 20817.
Comparing US postal service mail tracking records,
see Exhibit D (for Fowler) vs. Exhibit A (for
Kessmeier) one can see fraud committed by Defendant
Kessmeier with Defendant Caron and Lam, namely,
while Kessmeier’s mail with Summons and Complaint
was at the inner post office/ Bethesda, MD 20817 since
April 7, 2014 and postal mail tracking record showed
that while it was available for her to pick up since
April 7, 2014, she intentionally refused to pick up the
Summons and Complaint to this day/April 18, 2014, at
the same time tracking records were tampered with to
show falsely that the first class mail for Fowler, Caron,
Forman and Crock was still (since April 4, 2014 to the
day the motion was written i.e. April 18, 2014 i.e. for
two weeks) at the postal sorting facility.
18. Mail Fraud and Wire Fraud committed by
Defendant Kessmeier with Defendant Caron and Mr.
32

Lam is obvious to any reasonable mind, tampered mail
tracking records show that the first class mail was still
1.e. for two weeks at the US postal sorting facility,
while postal record/receipts of April 4, 2014 explicitly
stated that “Expected Delivery Day, Monday, 7”. Note
that Mr. Lam signed only green card (PS Form
3811)/certified mail for Defendant Kessmeier but
intentionally failed to sign green cards for Defendants
Fowler, Crock, Forman, Goldman and Wilson.
19. The mail fraud and wire fraud committed by
Defendant Kessmeier with her assistants Defendant
Caron and others is obvious to any reasonable mind.
Those defendants who had address different from that
of Defendant Kessmeier/Bethesda, MD 20817, received
their mail with summons and complaint within five
days from the day of sending, i.e. by April 10, 2014
from the day of sending, April 4, 2014: 1.Certified mail
70133020000163104957 was delivered on April 8. 2014
to Ray Mabus in Washington, DC 20350
2. Certified
mail 70133020000163127628 was
delivered on April 7. 2014 to Rod Rosenstein in
Baltimore, MD 21201-2692
3. Certified
mail 70133020000163127611 was
delivered on April 9. 2014 to E. Holder in Washington,
DC 20530
4. Certified mail 70133020000163127567 that was
delivered on April 7. 2014 to Archer M. Macy in
Arlington, VA 22207
5. Certified
mail 70133020000163127536 was
delivered on April 8. 2014 to Garth A. Jensen in
Herndon, VA 20171
6. Certified
mail 70133020000163104971 was
delivered on April 7. 2014 to G. Jebsen in Leesburg,
VA 20175

33

7. Certified mail 70133020000163104964 was
delivered on April 7. 2014 o Charles D. Behrle in
Warrenton, VA 20187
20. Defendant Kessmeier with Defendant Caron
and Mr. Lam committed intentional Federal Crime the
mail fraud and wire fraud to harm Plaintiff, to
obstruct justice by obvious violations of laws, postal
regulations and fraud with official US Postal Service
records of 2014.
21. Because Mail Fraud (18 U.S.C. section 1341) and
Wire Fraud (18 U.S.C. section 1343) are both federal
crimes and were intentionally committed by Defendant
Kessmeier with Defendant Caron in April 2014 and
they were caught and documented in court records see
Plaintiffs 4/18/14 motion in Case No. l:07-cv-01985DKC and Plaintiffs 2017 Petition for Writ of
Certiorari to the US Supreme Court No. 17-174, their
crimes were intentionally covered-up by fraud in prior
cases so that they could continue with impunity to
escalate Mail and Wire Fraud in 2019.
22. In the 1/18/19 motion to investigate fraud, Plaintiff
requested to investigate who tampered with the
official US Postal Serviced records, who deleted entries
of delivery of summons and complaint to 15 defendants
at Bethesda, MD 20817 and tampered with green
cards/return receipts in violation of the postal laws
and regulations? Instead of conducting criminal
investigation
Defendants
representatives
Hur/Marzullo submitted intentionally fraudulent
response of 3/13/19 and baseless accusations against
Plaintiff in order to cover-up Federal crime of Mail
Fraud and Wire Fraud committed by Defendant
Kessmeier with her assistant Defendant Caron and
others. In their 3/13/19 and 3/18/19 responses
Hur/Marzullo intentionally failed to investigate crime
34

and deliberately omitted crucial facts that the entry of
delivery of Plaintiffs mail with summons and
complaint to 15 defendants in Bethesda, MD 20817 on
1/7/19 or 1/8/19 were intentionally deleted and only a
few green cards/return receipts were sent to Plaintiff
by 1/18/19 and partially filled by agent who
intentionally failed to print his name on the green
cards.
23. For the remaining defendants, See Exhibit D, such
as Plaintiffs affidavit of service for Defendants
Snyder, Baberich, Martin, Reeves, Kessmeier, Forman,
Goldman, Han, Murphy, who had the same address as
defendant Kessmeier at the address in Bethesda, MD
20817, no green cards were received by Plaintiff and
the mail tracking records were also tampered with to
falsely show that the mail was not at Bethesda, MD
20817 or is still in transit, since January 5, 2019.
24.The mail fraud and wire fraud were intentional
Defendants
acts
committed
criminal
by
Kessmeier/Caron to obstruct justice, to harm Plaintiff,
to dismiss by fraud the case by maliciously tampering
with mail tracking records contrary to the fact that
Plaintiff served defendants with summons, complaint
by January 21, 2019.
25. The above listed facts and the evidence of recurring
Mail Fraud and Wire Fraud in the court records were
intentionally misrepresented by Hur/Marzullo in their
unsupported and intentionally fraudulent response of
3/13/19. Direct evidence of Mail Fraud and Wire Fraud
committed repeatedly by Defendant Kessmeier with
her assistants Defendant Caron was intentionally
misrepresented by Hur/Marzullo as “nothing more
than the mere fact that several defendants failed to
the summons and complaints that Plaintiff attempted
to send them.” i.d. p2 in paragraph 6, and then on p.4
35

in
paragraph
14
Hur/Marzullo
contradicted
themselves and inserted baseless accusations, e.g. that
“Plaintiff thus has not and cannot establish service on
Defendant Kessmeier because among other reasons, a
copy of the summons to Defendant Kessmeier and
complaint never in fact was delivered to defendant
Kessmeier and/or her “last known work address.” and
that “In his Affidavit of Service to Kessmeier, Plaintiff
falsely states that a copy of the summons and
complaint was delivered to Defendant Kessmeier’s
“last known work address” in Bethesda, Maryland, on
January 9, 2019., ECF No. 21, at 16. However, he
attaches no return receipt. Id. Moreover, the USPS
tracking number for the article provided by Plaintiff
70181830000206342865 reveals that it was delivered
not to Defendant Kessmeoer’s ‘last known work
address’ in Bethesda, Maryland, but, rather to Fulton,
Maryland, which is where Plaintiff resides, See. Ex.l.”
contrary to the undisputed evidence that Plaintiff
timely sent the summons and complaint via first class
certified mail to the last known work addrees for
Defndant Kessmieier and other Defendants.
26. Any reasonable mind can see fraud and fraudulent
arguments in Hur/Marzullo 3/13/19 response where
they contradicted themselves and inserted defendant’s
exhibits that have no new evidence, for example, Ex. 1
that is not new evidence, but the the same evidence of
mail and wire fraud as the one that Plaintiff‘s exhibit
shows that was attached to the 1/18/2019 affidavit of
service to Kessmeier, where Plaintiff explicitely
indicated to see Plaintiffs 1/18/19 Motion to
Investigate Fraud and, that between January 6. 2019
entry and January 10, 2019 entry the entry of
deleivery to Bethesda, MD 20817 was intentionally
deleted in the mail tracking record for Kessmeier
36

70181830000206342865, in his motion to investigate
fraud Plaintiff established by direct evidence in the
record that Mail Fraud and Wire Fraud were
intentionally committed by Kessmeier with her
assitant Defendatn Caron and their agent who failed
to print his name on green cards/return receipts and
deleted entry of mail delivery to Kessmeier and 14
other defendants in Bethesda Maryland on January 7
or 8 or 9, 2019. The fact that to 15 out of the 17
defendants at Bethesda, Maryland the entry of
delivery of my mail was deleted to defendants in
Bethesda, Maryland was intentionally omitted by
Hur/Marzullo in the 3/13/19 and 3/18/19 responses.
Also the fact that Kessmeier’s agent intentionally
failed to print his name on green cards/return receipts
and that as of the date of the motion, i.e. 1/18/19, most
of green cards/return reciepts were not sent to Plaintiff
in violation US Postal Service laws and regulations
was also intentionall omitted in the 3/13/19 and
3/18/19 responses. Even though green cards/return
recepts were attached to each envelope, the mail fraud
was committed with green cards/return recepts in
addition to the wire fraud with usps mail tracking
records of delivery, [about 10 green cards were left
completely blank without any markings in box A, B,
and C on the green cards as of 1/23/2019.]
27. The 15 tampered usps mail tracking records where
the entry of mail delivery to defendants at the
Bethesda, MD 20817 was intentionally deleted by
Kessmeier, Caron in conspiracy with their agent who
failed to print his name on green cards, show obvious
fraud: as though Plaintiff sent his certified mail from
the post office in Columbia, MD not to Defendants in
Bethesda, Maryland 20817 but to his residence in
Fulton, MD 20759. Note that contrary to
37

Hur/Marzullo’s fraud and baseless accusations the
originial US Postal Service CERTIFIED MAIL
RECEIPTS of 1/5/19 that were attached to Plaintiffs
1/18/2019 Motion to Investigate Fraud show explicitely
the name and address of each defendant, usps mail
tracking number, fee paid, date and place of sending,
address to be delivered to and the Estimated Time of
Delivery, and the US post office seal/stamp and on
each of these receipts were explicitely printed to be
delivered to Bethesda, MD 20817.
28. Defendants Kessmeier with her assistants
Defendant Caron and others were aware of the
dateline of January 21, 2019 set in the December 21,
2018 Order for Plaintiff to serve on defendants, and,
accordingly, to harm Plaintiff, committed intentional
mail fraud and wire fraud, that falsely show that
defendants at Bethesda, MD/20817 were still nor
served because the mail was never at Bethesda. MD or
is still in transit since January 5, 2019. They missed to
commit fraud with the mail records for Defendant
Templeton and Defendant Mayo, as explained above.
29. Exhibits A, B, C and D show that the certified mail
for all defendants was processed on the same day,
namely, January 6, 2019 at the same postal sorting
facility at Gaithersburg, MD 20898 and then the trail
i.e. tracking information for Defendants Kessmeier,
Caron, Han, Crock, Forman, Goldman, Wilson, Martin,
Wade, Snyder, Baberich, Reeves, Murphy, Thomas
was tampered with to delete that on January 7, 2019
mail for them was delivered to Bethesda, MD 20817,
picked up by agent, delivered to Carderock division of
NSWC, previewed by Defendant Kessmeier with her
subordinate Defendant Caron, and then the mail for
eleven defendants was returned to Plaintiff Dr. Yuri
Stoyanov in Fulton/20759 on January 16, 2019 while
38

the mail for the remaining defendants, namely, Caron,
Wilson, Crock, Thomas was intentionally fraudulently
stalled, to falsely show to be “in-transit” and the
tracking records were intentionally tampered with (to
delete that it was already on January 7, 2019 at
Carderock division/Bethesda, MD 20817 compare
Exhibits A and D) to falsely show that it is still at
postal sorting facility at Gaithersburg, MD 20898 or
other postal facilities, for about two weeks as of
1/18/19.
30. Specifically, see Attached to 1/18/19 motion
originals of USPS receipts and the very elaborate and
sophisticated Mail Fraud and Wire Fraud: the usps
website for the certified mail tracking records for Mr.
CaronTracking
Number:
David
70181830000206342872, attached to Plaintiffs 1/18/19
affidavits of service, show that this letter crossed the
state line at least twice, to go from the state of
Maryland to Washington DC and then crossed the
state line again to go from Washington DC to the state
of Maryland again, see also that the entry in the mail
tracking record that the mail was delivered to Mr.
Caron on 1/9/2019 was deleted in contrast to the green
card/return receipt, attached to 1/18/19 affidavit,
shows that the letter was delivered to Bethesda, MD
20817 and the agent who failed to print his name on
green card/return receipt signed on 1/9/19 and marked
that he is an agent for Caron. The mail tracking record
for Caron was tampered with to delete entry that mail
was received by the agent on 1/9/19 at Bethesda, MD,
see that entries between January 6 and 12, 2019 were
deleted, and, while on January 6, 2019 the mail was at
the Gaithersburg, MD distribution center and then one
can see that the next entry is 1/12/19 at the
Washington, DC distribution center, obviously to
39

deceive and to defraud, to cover-up committed Mail
and Wire fraud, the mail was apparently intentionally
misdirected to Washington, DC distribution center on
1/12/19, (apparently at Bethesda MD 20817 post office
sometime on January 7 or 8 or 9, 2019, however, this
entry was deleted in the record), then Washington, DC
net distribution center on January 13, 2019 and then
the same mail crossed the state line again to return to
Gaithersburg, MD distribution center on January 14,
2019 etc. but the fact that mail was already delivered
to Bethesda, MD on January 9, 2019 was deleted in
the official usps mail tracking records for this and 14
other defendants with the same address at Bethesda,
MD 20817.
31. Hur/Marzullo in their responses of 3/13/19 and
3/18/19 in addition to deliberate misrepresentations of
the intentional Mail Fraud and Wire Fraud, and their
fraudulent statement of “no evidence of fraud”, also
inserted baseless accusations on p.4 in paragraph 14
that “Plaintiff thus has not and cannot establish
service on Defendant Kessmeier because among other
reasons, a copy of the summons to Defendant
Kessmeier and complaint never in fact was delivered
to defendant Kessmeier and/or her “last known work
address.”
They deliberately misrepresented Plaintiff 1/18/19
Motion to Investigate Fraud and the Wire Fraud with
usps website for the certified mail tracking records for
Mr. Catherine Kessmeier- Tracking Number:
70181830000206342865 show that entries between
January 6 and 10, 2019 were deleted, and while on
January 6, 2019 the mail was at the Gaithersburg, MD
distribution center and then one can see that the next
entry is 1/10/19 “in transit’” to the next postal facility,
and the next entry is January 16, 2019 at Fulton, MD
40

20759 post office, i.e. returned to the sender, Dr. Yuri
Stoyanov, i.e. the tampered mail record for Kessmeier
falsely shows that the mail was not delivered to
Kessmeier at Bethesda, MD 20817 because entry that
mail was delivered on January 7 or 8 or 9, 2019 to
Bethesda, MD 20817 was deleted intentionally to
defraud me, to harm me. When on 1/23/19 I received
the returned mail, I noticed that only the envelope for
Defendant Caron was broken and, apparently, its
content was previewed, copied and then sealed with
heavy tape, and then official mail records were
tampered with for 15 out of 17 defendants at
Bethesda, MD 20817.
32. Accordingly, Plaintiff respectfully submits
Motion FOR SANCTIONS AND REBUTTAL OF

DEFENDANTS

FRAUDULENT RESPONSE

OF

3/13/19 AND 3/18/19 TO THE 1/18/19 MOTION TO
INVESTIGATE FRAUD AND TO
COMPEL
DEFENDANTS’ REPRESENTATIVE TO ACCEPT
AND SERVE WITH SUMMONS DEFENDANTS Han.
Crock, Forman, Goldman, Wilson, Martin, Wade,
Snyder, Baberich, Reeves, Murphy, Thomas, by
informing them that the civil action was initiated in
this court against the Defendants in their official
capacity and individually.
Wherefore, in consideration of the above,
Plaintiff respectfully requests to grant Plaintiffs
instant Motion for Sanctions and Plaintiffs 1/18/19
Motion to Investigate Fraud and to Compel
Defendants’ Representative to accept and service with
summons Defendants Kessmeier, Caron, Han, Crock,
Forman, Goldman, Wilson, Martin, Wade, Snyder,
Baberich, Reeves, Murphy, Thomas.
Respectfully submitted

41

/s/ Dr. Yuri Stoyanov 7560 Pindell School Rd, Fulton,
MD 20759
Certificate of Service
I hereby certify that on the _25 day of _March 2019, a
copy of the Plaintiffs Motion for Sanctions and
Rebuttal of Defendants Fraudulent response of 3/13/19
and 3/18/19 to Plaintiffs 1/18/19 Motion to Investigate
Fraud and to Compel Defendants’ Representative to
Accept and Serve with Summons Defendants
KESSMEIER. CARON. HAN. CROCK. FORMAN.
GOLDMAN. WILSON. MARTIN. WADE, SNYDER.
BABERICH. REEVES. MURPHY. THOMAS and
proposed Order was sent to the following via:
First Class Mail to the following:
Robert Hur/Kelly Marzullo
Hand Delivered or
Assistant United States Attorney
First Class Mail to the followi:
36 South Charles Street
Clerk of the Court
Fourth Floor
United States District Court
Baltimore, Maryland 21201
Southern Division
Or Fax (410) 962-9947
6500 Cherrywood Lane
Greenbelt, Maryland 20770
March 25. 2019
/s/
Date
Dr. Yuri Stoyanov
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Dr. YURI J. Stoyanov,
Plaintiff
vs.
Case No. CCB-09-347
MR. RAY MABUS, Secretary of the Navy, et al.,
Defendants
...oOo...
Order
Upon consideration of Plaintiffs Motion for Sanctions
and Rebuttal of Defendants Fraudulent response of
42

3/13/19 arid 3/18/19 to Plaintiffs 1/18/19 Motion to
Investigate

Fraud

and

to

Compel

Defendants’

representative to Accept and Serve with Summons 15
Defendants at Bethesda, MD, and for good cause
shown, it is hereby ORDERED:
1. Plaintiffs Motion to Investigate Fraud and to
Compel Defendants’ Representative to Accept and
Serve with Summons Defendants Kessmeier, Caron,
Han, Crock, Forman, Goldman, Wilson, Martin, Wade,
Snyder, Baberich, Reeves, Murphy, Thomas in this
case SHOULD BE and hereby IS GRANTED;
2.Plaintiffs Motion for Sanctions is Granted;
3.Robert Hur, the Defendants’ Representative and the
US Attorney for the District of Maryland, is Ordered to
Investigate Mail Fraud and Wire Fraud committed by
Defendant Kessmeier with her assistant Defendant
Caron and others in January 2019 and in April 2014,
and to prepare and release to Plaintiff investigative
reports for these criminal cases for court;
4. Defendants’ Representative is ORDERED to accept
and serve with summons 15 Defendants.
Date:

Catherine C. Blake/ United States District

Judge

43

APPENDIX 7

: Petitioner’s 4/5/19 Second Motion for Sanctions and
Opposition to defendants’ 3/26/19 motion to consolidate
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Dr. YURI J. Stoyanov, Plaintiff
vs. Case No. CCB-09-3479
MR. RAY MABUS, Secretary of the Navy, et al.,
Defendants
...oOo...
Plaintiffs SECOND Motion FOR SANCTIONS AND
OPPOSITION TO DEFENDANTS UNSUPPORTED
MOTION OF 3/26/19 with FRAUDULENT DEMAND
TO CONSOLIDATE
1. In this pro se case Plaintiff, DR. YURI J.
STOYANOV
is
in
receipt
of Defendants
representatives Hur/Marzullo’s unsupported and
intentionally fraudulent March 26, 2019 Motion to
Consolidate. Because Defendants’ 3/26/2019 motion is
unsolicited, unsupported, and fraudulent, Plaintiff
respectfully submits instant opposition to their motion
where they inserted fraudulent arguments and
demand to consolidate Plaintiffs five lawsuits into one
and respectfully requests to deny Defendants 3/26/19
motion. Hur/Marzullo to deceive the court inserted
intentional fraud in their motion, for example, on p. 2
that “to date, two defendants in their individual
capacity remain to be served with process”, implying
that Plaintiff still as of March 26, 2019 failed to
comply with the 12/21/18 Order to serve with
summons and complaint on defendants by 1/21/19, and
that some of the defendants in Bethesda, MD 20817
were still not served, and they want the court to
believe that it was Plaintiffs fault, that Plaintiff
instead of sending his mail with summonses and
complaints to Defendants in Bethesda, MD 20817, sent
44

his mail with summonses and complaints via US post
office certified mail with restricted delivery to his
residence in Fulton, MD, 20579, that per
Hur/Marzullo’s fraudulent arguments the usps mail
tracking records were not tampered with, the entries
of delivery of Plaintiffs mail to defendants in
Bethesda, MD were not deleted by Defendant
Kessmeier in conspiracy with her assistants Defendant
Caron and others and that the official US Postal
Service records correctly reflect that Plaintiff indeed
sent summonses and complaints from Columbia, MD
post office not to defendants in Bethesda, MD 20817
but to his residence in Fulton, MD 20759 and,
according to Hur/Marzullo’s fraudulent arguments
now is the time to consolidate all Plaintiff lawsuits and
that all Plaintiffs claims in five lawsuits are alike.
Contrary to Hur/Marzullo’s fraud and fraudulent
arguments Plaintiffs lawsuits include not only
different claims but also new witnesses because
Defendant Kessmeier in conspiracy with her assistants
Defendant Caron and others instigated agency officials
to escalate violations of laws, fraud, intentional
discrimination and retaliations, Defendants were not
stopped nor punished so they with impunity escalated
violations of new laws, new violations of Plaintiffs
rights, for example, repeatedly transferred Plaintiff
involuntary from one technology department to
another technology to escalate retaliations, and did
this with impunity, then, considering that this was
insufficient suffering and pain to Plaintiff, they
violated new laws and regulations, intentionally
fabricated baseless accusations to suspend Plaintiffs
Top Secret Security Clearance in order to remove from
work and federal service by fraud. However, after
Plaintiff appealed to the special court regarding
45

security clearance suspension, i.e. to the Defense
Office of Hearing and Appeal [DOHA] and rebutted all
accusers’ baseless accusations, the DOHA judge
observed during the hearing that none of the accusers
[i.e. defendants in Plaintiffs court cases] came to the
hearing because they were afraid to testify under oath
and to loose their security clearances for committing
perjury and fraud. DOHA judge ruled in favor of
Plaintiff and, as a result of DOHA, the Chief of Naval
Operation’s Office issued letter to restore Plaintiffs
Top Secret Security Clearance, to reinstate into pay
status and Plaintiff returned to work. Then defendants
in conspiracy with Defendant Kessmeier and her
assistants Defendant Caron and others, committed
new violations of laws; new fraud, new retaliations,
hence Plaintiff filed new disclosures, new claims and
new lawsuits. Hur/Marzullo intentionally contradict
evidence in the court records, such as in Plaintiffs
lawsuits filed in 2011, 2012, 2013 and 2014, and also
in the instant case, for example, see the original US
Postal Service receipts of 1/5/19 attached to Plaintiffs
1/18/19 Motion to Investigate Fraud, that clearly show
that Plaintiff sent his certified mail to Defendants in
Bethesda, MD 20817, not to his residence. Defendants’
fraud and fraudulent arguments in their 3/26/19
motion are obvious to any reasonable mind. In the
interest of justice and for the reasons explained more
fully below the Plaintiff respectfully requests to deny
Defendants 3/26/19 motion and to keep separate from
this case of 2009 the five civil action cases filed by the
Plaintiff in 2011, 2012, 2013 and 2014.
2. Direct evidence in the court records show that
Defendants representative Hur/Marzullo submitted on
3/26/19 intentionally fraudulent arguments and
baseless accusations on p2 in paragraph 5 that “to
46

date, two defendants in their individual capacities
remain to be served with process. See ECF No. 25,”
and demanded consolidation with other lawsuits.
Contrary to Hur/Marzullo’s unsupported demands and
intentionally baseless accusations against Plaintiff
they deliberately misrepresented facts to cover-up
their fraud in the 3/13/19 and 3/18/19 filings, including
mail fraud and wire fraud committed with Plaintiffs
1/5/19 mail by Defendant Kessmeier with her
assistants.
Thus,
Hur/Marzullo
intentionally
contradict to direct evidence in the records of the
recurring since 2002 fraud committed by Defendants
Kessmeier and Caron and their agents’ who
intentionally failed to print his name on green
cards/return receipts; Defendant Kessmeier’s fraud
was disclosed in Plaintiffs 1/18/19 “Motion to
Investigate Fraud” and in the 3/25/19 “Motion for
Sanctions and Rebuttal of Defendants Fraudulent
Response of 3/13/19 to the 1/18/19 Motion to
Investigate Fraud”. Thus, Defendants 3/26/9 motion is
unsupported, is contrary to the evidence in records,
accordingly Plaintiff respectfully requests to deny
Defendants’ 3/26/19 motion and to grant Plaintiffs
instant Second Motion for Sanctions, to Impose
additional Sanctions against the defendants to pay all
Plaintiffs discovery expenses and jury trail expenses.
3. Hur/Marzullo filed their 3/26/19 fraudulent
“Motion to Consolidate" together with the 3/26/19
“Motion for Extension of Time”, which is untimely and
is intentionally in violation of court rules of civil
procedure requiring that motion must be filed at least
five days prior to the expiration of time, instead
Hur/Marzullo filed their motion one day prior to
expiration of time i.e. 3/27/19 [to respond to Plaintiffs
1/5/19 sending of summons and complaints to
47

defendants to be replied by Defendants within 60 days
from the day of receiving i.e. 1/7/19]. In their untimely
motion for extension of time they demanded again
extension of time and time of extension to begin not
from 3/27/2019 but after the decision would be issued
on defendants unsupported and fraudulent 3/26/19
“motion to consolidate”. In contrast to Plaintiffs
1/18/19 “Motion to Investigate Fraud” which is timely
and supported by direct evidence in the records and
must be granted, the Defendants 3/26/19 “motion to
consolidate” is unsupported, untimely, with deliberate
misrepresentations and must be denied.
4. The instant case was filed with the court in
2009 and reactivated in September 2018, then on
12/21/18 court Order granted Plaintiffs 10/31/18
Motion to Amend, and accordingly, since 12/21/18 in
amended case there are already 72 claims and 14
counts and 20 witnesses. There is no need to add more
claims and witnesses because most of the 72 claims
were not investigated and none of the witnesses were
examined under oath to this day. This had happened
so because of Defendant Kessmeier’s and her assistant
Defendant Caron’s criminal conduct and fraud, they
intentionally committed violations of laws with
impunity to obstruct justice, to harm Plaintiff and to
preclude during administrative proceedings the
examination of witnesses under the oath and the
investigation of claims so that Defendants could
continue with impunity to escalate intentional
violations of laws, fraud, intentional discrimination
and escalated retaliations against Plaintiff. The same
pattern of Kessmeier’s and Caron’s criminal conduct
and fraud to harm Plaintiff had been committed as
recently as January 2019, while the instant case was
active and proceeding, they attempted to dismiss
48

instant case [with 72 claims, 14 counts and 20
witnesses] by fraud i.e. by committing intentionally
recurring mail fraud and wire fraud with Plaintiffs
mail with summonses and complaints and then via
Defendants representatives Hur/Marzullo submitted
fraud and baseless accusations against Plaintiff in
defendants’ filings of 3/26/19, 3/18/19 and 3/13/19, in
spite of the fact that Plaintiff timely sent summonses
and complaints on January 5, 2019 and served 17
defendants at Bethesda, MD 20817 by January 21,
2019 pursuant to the 12/21/2018 Order. Kessmeier
with Caron and their agent tampered with the
certified mail with restricted delivery for 15
defendants in Bethesda, MD 20817, intentionally
tampered with the official US Postal Service records to
delete the January 7 or 8, 2019 entry of mail delivery
in the usps mail tracking records for 15 defendants in
Bethesda, MD 20817 and committed fraud with 14
green cards/return receipts in violation of federal laws
and postal regulations.
5. To deceive the court and to cover-up Defendant
Kessmeier’s and Defendant Caron’s recurring mail
fraud and wire fraud defendants representative
Hur/Marzullo persisted to escalate fraud, deliberately
misrepresented facts and committed fraud in their
motions of 3/13/19, 3/18/19 and 3/26/19 and also
inserted baseless accusations that Plaintiff failed to
serve on defendants with ‘summons and complaint
because mail tracking records show that his mail was
delivered not to Defendant Kessmeier in Bethesda MD
20817 but to Plaintiffs residence [i.e. implying that
Plaintiff sent his mail from post office in Columbia,
MD to his residence in Fulton, MD 20817 instead to
defendants in Bethesda, MD 20817] .Moreover, because
the already large number of claims have to be
49

investigated and 20 witnesses to be examined under
oath this will take considerable time during discovery.
Accordingly, Plaintiff respectfully requests to deny
defendants 3/26/19 motions, to impose additional
sanctions against defendants and to Order discovery
and then jury trial to supplement intentionally
deficient court records because all Plaintiffs prior
requests for investigation of claims and for discovery
during administrative proceedings were precluded by
Defendant Kessmeier’s and her assistant Defendant
Caron’s criminal conduct. Direct evidence in the court
records show that Defendants Kessmeier and Caron
had willfully and persistently violated federal,
common and criminal laws time and time again, year
after year with impunity. Accordingly, in order to
conduct fair adjudication of Plaintiffs claims and to
examine Defendants under oath, Plaintiff respectfully
requests to commence the 60-days discovery to
examine Defendants under oath, to investigate claims,
to supplement deficient court records with evidence
and agency documents solely in Defendants’
possession, in order to prepare the case for jury trial
and then to conduct jury trial.
6. Further, because Defendants Kessmeier and
Caron violated laws, obstructed justice, committed
fraud and suborned witnesses to deny fair hearings
and jury trials that Plaintiff requested in each and
every case, all prior cases were decided not by jury but
by career criminals on the bench and their decisions
were fraudulent, starting from the first lawsuit of 2005
before federal judge R. Bennett who conspired with
defendants representatives R. Rosenstein and his
assistant J. Sippel and in conspiracy with Defendants
Kessmeier and Caron to commit fraud and mockery to
justice, was caught committing fraud with the
50

transcripts of court hearings and then, instead of
proceeding with jury trial, deliberately committed
judicial fraud, ruled and made decisions in favor of
defendants not based on the rule of laws and facts but
on the rule of lies and fraud submitted to the court by
Defendants representatives and Defendant Kessmeier
with her assistant defendant Caron. Career criminal
R. Bennett, committed intentional judicial fraud: first
delayed the release of transcripts so that Rosenstein
with Kessmeier would have time to tamper with the
transcripts and then, after Plaintiffs discovered fraud
with transcripts and timely filed “Motion to Release
Copies of Audiotapes of the Court Hearings”, he denied
Plaintiffs and his brother Dr. Aleksandr Stoyanov’s
“Motions to Release Copies of Audiotapes of Court
Hearings” so that Plaintiff could not uncover more
fraud in the transcripts of court hearing committed by
Rosenstein with Kessmeier and their assistants. In
addition, the career criminal on the bench federal
judge R. Bennett deliberately denied Plaintiffs
“Motion to Compel Defendants Representatives to
Certify Under Penalty of Perjury the Content of
Defendants filings to be Accurate and True”, thereby
intentionally encouraged Defendants and Defendants
representative to escalate violations of laws, fraud and
intentional retaliations against Plaintiffs. Encouraged
by Bennett’s repeated judicial fraud committed in all
cases that were before him, Defendants escalated
violations of laws, fraud, intentional discrimination
and retaliations against Plaintiffs for Whistleblower’s
and EEO discrimination activities and on the bases of
age born in 1955 and national origin, born in Russia to
remove from work by fraud.
7. Similarly and at the same time Defendants
Representatives escalated violations of laws and court
51

rules and submitted to the court intentionally
fraudulent filings to harm Plaintiffs, to deny fair
hearing and to deny jury trials. For more direct
evidence of judicial fraud committed by career
criminals on the bench in all prior cases filed by
Plaintiff and his brother Dr. Aleksandr Stoyanov since
2005, see for example Plaintiffs Case No. l:07-cv01985-DKC and Plaintiffs 2017 Petition for Writ of
Certiorari to the US Supreme Court No. 17-174.
8. Furthermore, because Defendants were not
stopped, nor punished by career criminals on the
bench, but instead had been encouraged to continue to
escalate intentional violations of laws, fraud, including
mail fraud and wire fraud, intentional discrimination
and retaliations, Plaintiff was forced to file additional
disclosures with the US Office of Special Counsel and
through the chain of Naval Command, with MSPB and
filed additional EEO discrimination complaints with
the agency EEO office and as a result there are
hundreds of additional claims and dozens of additional
witnesses in the lawsuits filed by Plaintiff in 2011,
2012, 2013 and 2014. I believe, from my experience of
prior hearings that consolidation of claims is
counterproductive and unnecessarily delayed and
complicated the hearing process.
Accordingly, I
believe that justice will not be served by consolidating
civil action cases.
9. In addition, for each filed lawsuit I paid full
filing court fees and each civil action includes not only
large number of claims but also different or more
witnesses since Defendants, instigated by career
criminals Defendant Kessmeier and Defendant Caron,
escalated violations of laws and retaliations,
intentionally transferred Plaintiff involuntary and
repeatedly from one technology department to another
52

technology department and then removed from work
twice by fraud to escalate harm to Plaintiff and inflict
severe suffering and to retaliate and as such the
consolidation and the addition of more claims and
more witnesses will make hearing longer and will not
serve justice or spare scarce resources.
10. Accordingly, consolidation of the instant
case CCB-09-3479 with any of the followed lawsuits
filed in 2011, 2012, 2013 and 2014 will do more harm,
needless delays, and longer discovery and make the
hearing longer and more expensive. Further, pending
additional two criminal cases of Mail Fraud and Wire
Fraud committed by Defendant Kessmeier with her
assistants Defendant Caron and others in April 2014
and January 2019 will be the subjects of new court
actions.
11. Mail Fraud (18 U.S.C. section 1341) and Wire
Fraud (18 U.S.C. section 1343) are both federal crimes
and were committed not only in January 2019 but also
in prior years such as in April 2014 and in 2013 and
2008 to harm me and my brother, it is obvious to any
reasonable mind that the January 2019 Mail Fraud
and Wire Fraud were very elaborate and sophisticated
scheme committed in furtherance of Defendant
Kessmeier’s fraudulent scheme she set up since 2002.
This scheme involved the following elements:
1. A scheme existed for the purpose of
committing fraud; to harm, to defraud my
brother Dr. Aleksandr Stoyanov and me, Dr.
Yuri Stoyanov;
2.Defendant Kessmeier with her assistants
Defendant Caron and others knowingly and
willfully participated in the scheme since 2002,
specifically, see the most recent Mail Fraud and

53

Wire Fraud of January 2019, also Mail Fraud
and Wire Fraud of April 2014, 2013, 2008, etc.;
3.Kessmeier with her assistants Caron and
others used a public mail service, such as, an
agent in their service, the United States Postal
Service and the Wire Fraud via USPS website
electronic/wire communications to further the
scheme.
Thus, all essential elements of the Federal crime of
mail fraud and wire fraud were involved and are
pending court because Defendant Kessmeier with her
assistants Defendant Caron and others since 2002
with impunity had continued to escalate violations of
laws, obstruction of justice, intentional retaliations,
discrimination and escalated recurring Mail Fraud
and Wire Fraud to harm my brother and me. Instead
of complying with the laws and Navy policy of zero
tolerance to discrimination, Defendant Kessmeier had
been rewarded for violations of laws, fraud, obstruction
of justice and for committing recurring Mail Fraud and
Wire Fraud and in turn she rewarded the violators of
laws, US Postal regulations, for committing recurrent
Mail Fraud and Wire Fraud and for violating Navy
policy. I believe, that timely and fair adjudication of
each lawsuit will enforce Defendants and Defendants
representatives’ compliance with the Civil Rights Act,
the Age Discrimination in Employment Act,
Whistleblower Protection Act, the civil service laws,
common and criminal laws, including Federal laws
such as Mail Fraud (18 U.S.C. section 1341) and Wire
Fraud (18 U.S.C. section 1343).
12. The large number of claims and witnesses has
already taken tall in delays, cost, and expenses I have
suffered as identified in prior civil actions. This
happened because I was denied fair adjudication
54

because of the willful and persistent judicial fraud
committed by the criminals on the bench in prior cases
and during the administrative EEOC and MSPB
Defendant
proceedings on these complaints.
Kessmeier with her assistant Defendant Caron and
other defendants and agency officials intentionally
escalated discrimination against my brother and me to
harm us and to cover-up continuous discrimination,
escalated retaliations, violations of laws, and fraud,
including Mail Fraud and Wire Fraud committed by
defendants. Instead of stopping defendants violation
of laws, fraud, including mail fraud and wire fraud,
discrimination, and intentional retaliations criminals
on the bench ruled and made decisions in favor of the
agency and defendants using agency and defendants
representatives’
criminal
conduct,
Defendant
Kessmeier and her assistant Defendant Caron’s
deliberate misrepresentations, fraud, tampering with
evidence and witnesses, mail fraud and wire fraud. In
the EEOC, MSPB, and courts my brother and I
provided direct evidence of willful and persistent
judicial fraud committed by career criminals on the
bench starting from the 2002 at the EEOC by career
criminal administrative judge D. Norken who
repeatedly extended to over 360 days hearings by
fraud instead of only 180 days stipulated by
regulations.
13. Thus, I strongly object and oppose consolidation of
the instant complaint because consolidation will not
spare scarce resources, but on the contrary
consolidation of complaints will needlessly make
hearing longer, complicate and extend the hearing
process, and make proceeding more expensive. The
consolidation will only harm me and will stall the
already long overdue fair adjudication of my
55

complaint. I believe that consolidation will deprive me
of necessary time to effectively prepare the case for the
hearing of already amended complaint with numerous
claims, 72 claims and 14 counts against defendants
and to examine 20 defendants under oath at the jury
trial. In the interest of justice, I oppose consolidation of
the instant complaint with my other civil actions.
14. Furthermore, there are pending two criminal
lawsuits against Defendants. Clearly, consolidation
will lead to further delays and will only stall the
adjudication of my complaints,
I believe that
consolidation will only encourage Defendants and
Defendants Representative Hur/Marzullo to further
escalate violation of laws, court rules and regulations,
deliberate misrepresentations, baseless accusations,
fraud, including mail fraud and wire fraud, intentional
discrimination and retaliations.
15. Thus, I believe that consolidation of the instant
complaint with my other actions will deprive me of my
right to a fair and speedy trial, unnecessarily
complicate and make longer the case, escalate costs,
and harm me because of large number of claims in
each case and the Defendants and Defendants
representatives continuous escalation of criminal
conduct, intentional violations of laws, deliberate
misrepresentations and fraud, including recurrent
mail fraud and wire fraud.
16. Wherefore, in consideration of the above, Plaintiff
respectfully submits this opposition to consolidation of
the instant complaint with other lawsuits, because
consolidation will not serve the justice or provide any
economy and respectfully requests to continue instant
civil action as a separate case without any
consolidation. Accordingly, Plaintiff respectfully
56

requests to deny Defendants 3/26/19 motions, to grant
Plaintiffs “Second Motion for Sanctions and
Opposition to Defendants’ Unsupported Motion of
3/26/19 with Fraudulent Demand to Consolidate,” and
to grant Plaintiffs request to commence 60 days
discovery.
Respectfully submitted
/s/ Dr. Yuri Stoyanov
Certificate of Service
I hereby certify that on the _5 day of _April 2019, a
copy of the Plaintiffs “Second Motion for Sanctions
and Opposition to Defendants’ Unsupported Motion of
3/26/19 with Fraudulent Demand to Consolidate” and
proposed Order was sent to the following via:
First Class Mail to the following:
Hand Delivered or
Robert Hur/Kelly Marzullo
Assistant United States Attorney
First Class Mail to the following:
Clerk of the Court
36 South Charles Street
Fourth Floor
United States District Court
Southern Division
Baltimore, Maryland 21201
Or Fax (410) 962-9947
6500 Cherrywood Lane
Greenbelt, Maryland 20770
April 5. 2019
/s/
Dr. Yuri Stoyanov
Date
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Dr. YURI J. Stoyanov,
Plaintiff
MR. RAY MABUS,
vs.
Case No. CCB-09-3479
Secretary of the Navy, et al., Defendants
...oOo...
Order
Upon consideration of Plaintiffs “Second Motion for
Sanctions and Opposition to Defendants’ Unsupported

57

Motion of 3/26/19 with Fraudulent Demand to
Consolidate,” and for good cause shown, it is hereby
ORDERED:
1.Plaintiffs

“Second

Motion

for

Sanctions

and

Opposition to Defendants’ Unsupported Motion of
3/26/19 with Fraudulent Demand to Consolidate,” in
this case SHOULD BE and hereby IS GRANTED;
2.Defendants’

3/26/19

motion

to

consolidate

is

DENIED;
3.Plaintiffs request for Discovery is GRANTED;
4.Parties

ORDERED

to

commence

60

days

DISCOVERY;
5.Defendants Ordered to Pay all Plaintiffs Discovery
expenses and Jury trial expenses;
6. Robert Hur, the Defendants’ Representative and the
US Attorney for the District of Maryland, is Ordered to
Investigate Mail Fraud and Wire Fraud committed by
Defendant Kessmeier with her assistant Defendant
Caron and others in January 2019 and in April 2014,
and to prepare and release to Plaintiff investigative
reports for these criminal cases for court;
7.Defendants’ Representative is ORDERED to accept
and serve with summons 15 Defendants.

58

Date:

Catherine C. Blake /United States

District Judge
APPENDIX 8:
Petitioner’s 4/26/19 Motion to reconsider and
rescind 4/16/19 order
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Dr. YURI J. Stoyanov, Plaintiff
vs. Case No. CCB-09-3479
MR. RAY MABUS, Secretary of the Navy, et al.,
Defendants
...oOo...
PLAINTIFF’S MOTION TO RECONSIDER AND
RESCIND THE 4/16/19 ORDER AND TO ISSUE
NEW ORDER TO RESCIND CONSOLIDATION OF
LAWSUITS AND TO GRANT PLAINTIFF’S
MOTIONS TO INVESTIGATE RECURRING MAIL
FRAUD AND WIRE FRAUD COMMITTED BY
DEFENDANTS AND TO IMPOSE SANCTIONS
AGAINST DEFENDANTS
1. In this pro se case Plaintiff Dr. Yuri Stoyanov
respectfully submits “Motion to Reconsider and
Rescind the 4/16/19 Order and to Issue New Order to
rescind consolidation of lawsuits, and to grant
Plaintiffs motions to Investigate Recurring Federal
Crimes of Mail Fraud and Wire Fraud committed by
Defendants and to Impose Sanctions against
Defendants”, because the order imposes undue burden
on the Plaintiff and is unsupported by the evidence in
the court records by improperly granting defendants’
unsupported motions based on fraud, intentionally
59

fraudulent arguments and baseless demands while at
the same time denying Plaintiffs three motions that
are supported by direct evidence in the court records of
recurring federal crimes committed by Defendant
Kessmeier with her assistants and Defendants’
representatives Hur and Marzullo.
2.Note there is no explanation in the Order why
Plaintiffs three motions with direct evidence of federal
crimes committed by Defendants [Kessmeier and
Caron and by Defendants’ representatives Hur and
Marzullo] were denied while at the same time
Defendants’ motions with willful and persistent fraud
and baseless demand to consolidate were granted. Any
reasonable mind can see that the Order 4/16/19 is
contrary to the evidence in the court records and must
be reconsidered, rescinded and new Order must be
issued based on facts and evidence in the record to
grant Plaintiff relief since Plaintiffs three motions of
1/18/19, 3/26/19 and 4/5/19-are all supported by direct
evidence in the record, so that Plaintiff could proceed
based on fair hearing and jury trial. Therefore, the
4/16/19 Order based on Defendants’ fraud,
intentionally fraudulent arguments, and baseless
demands must be rescinded and new Order issued to
rescind consolidation of the Plaintiffs five cases each
of which was paid as a separate lawsuit because of the
Defendants flagrant violations of laws and egregious
harm inflicted on the Plaintiff.
3. Plaintiff respectfully requests the Court to
rescind the denial of Plaintiffs 1/18/19 Motion to
Investigate Fraud, to rescind the denial of Plaintiffs
3/25/19 Motion for Sanctions, and to rescind the denial
of Plaintiffs April 5, 2019 Second Motion For
Sanctions against the Defendants. Plaintiff again
requests that the Court order discovery and to
60

Investigate Recurring Federal crimes committed by
the Defendants including mail fraud and wire fraud
committed by Defendant Kessmeier in conspiracy with
her assistant Defendant Caron in January 2019, and
to impose sanctions for fraud and fraudulent
arguments submitted to the court by Defendants’
Representative Hur and Marzullo, to impose sanctions
for violations of laws, including federal and criminal
laws, and for submitting intentionally fraudulent
arguments to deceive the court and to harm Plaintiff.
4.Mail Fraud and Wire Fraud are federal crimes
and were committed by Defendants Kessmeier and
Caron in January 2019 to dismiss instant lawsuit by
fraud and by tampering with the evidence to harm
Plaintiff to deceive the court by tampering with the
official US Postal Service records in direct violation of
federal laws, specifically the Mail Fraud (18 U.S.C.
section 1341) and Wire Fraud (18 U.S.C. section 1343).
Both violations are federal crimes committed by
Defendants Kessmeier/Caron intentionally and
repeatedly and not only in January 2019 but also in
prior years such as in April 2014, in 2013, and 2008.
For more direct evidence of fraud committed prior to
the January 2019 Mail Fraud and Wire Fraud, see for
example Plaintiffs Case No. l:07-cv-01985-DKC and
Plaintiffs 2017 Petition for Writ of Certiorari to the
US Supreme Court No. 17-174.Therefore, the 4/16/19
Order must be rescinded so that Plaintiff could receive
fair hearing and jury trial.
5. In January 2019, Defendant Kessmeier with
her assistants Defendant Caron and others
demonstrated in the instant case that they
intentionally violated federal laws [18 U.S.C. section
1341 and section 1343] as was evident in the Plaintiffs
three motions that were timely filed with direct
61

evidence from the official US Postal service documents
and supporting records.
6. In Plaintiffs 1/18/19 “Motion to Investigate
Fraud and to Compel Defendants Representative to
Accept and Serve with Summons and Complaint 16
Defendants”; in the Plaintiffs 3/25/19 “Motion for
Sanctions and Rebuttal of Defendants Fraudulent
Response of 3/13/19 to the 1/18/19 Motion to
Investigate Fraud” and in Plaintiffs 4/5/19 “Second
Motion for Sanctions and Opposition to Defendants’
Unsupported Motion of 3/26/19 with Fraudulent
Demand to Consolidate,” Plaintiff provided direct
evidence in the court records that not only Defendants
Kessmeier, Caron and others intentionally committed
federal crime, but also Defendants Representatives,
namely, R. Hur, the US Attorney for the District of
Maryland and his assistant K. Marzullo, submitted
fraudulent filings and fraudulent arguments to the
court to cover-up crimes committed by Defendant
Kessmeier, Defendant Caron and others. Thus,
Hur/Marzullo intentionally contradicted direct
evidence in the records such US Postal Service
Certified Mail receipts and usps website mail tracking
records disclosed in Plaintiffs 1/18/19 “Motion to
Investigate Fraud” and in the 3/25/19 “Motion for
Sanctions and Rebuttal of Defendants Fraudulent
Response of 3/13/19 to the 1/18/19 Motion to
Investigate Fraud”.
7.To deceive the court and to harm Plaintiff, the
defendants representatives, namely, R. Hur, the US
Attorney for the District of Maryland and his assistant
K. Marzullo deliberately misrepresented facts in court
records and in their filings on behalf of Defendants
and submitted baseless accusations that Plaintiff
failed to serve Defendants with summons and
62

complaint, and, they made fraudulent arguments and
unsupported fraudulent demand to consolidate
Plaintiffs five lawsuits in order to harm Plaintiff and
to cover-up recurring Federal crimes of Mail Fraud
and Wire Fraud committed by Defendant Kessmeier
with her assistants so that they could continue to
escalate obstruction of justice, fraud, intentional
violations of laws, and harm Plaintiff with impunity.
8. In addition, Defendants failed to write
oppositions to Plaintiffs 3/25/19 Motion for Sanctions
and to Plaintiffs 4/5/19 second motion for sanctions,
which were timely filed with direct evidence that
Defendants’ filings such as 3/13/19 and 3/26/19 are
intentionally fraudulent, unsupported by the evidence
and
Defendants
representatives
Hur/Marzullo
proffered
deliberate
misrepresentations
and
fraudulent arguments. Therefore, the Court should
grant Plaintiffs 3/25/19 Motion for Sanctions and
Plaintiffs 4/5/19 Second Motion for Sanctions
9.After Plaintiff filed the 3/25/19 “Motion for
Sanctions against defendants and Rebuttal of
Defendants 3/13/19 filing” and by direct evidence in
the court records established that Hur/Marzullo
submitted intentional fraud and fraudulent arguments
to the court to cover-up Kessmeier/Caron’s recurring
Mail Fraud and Wire Fraud and to preclude the
investigation of their federal crimes, Plaintiffs timely
requests in the 1/18/19 and 3/25/19 motions to
investigate federal crime of Mail Fraud and Wire
Fraud committed by Kessmeier, Hur/Marzullo
persisted to perpetuate deliberate misrepresentations,
fraud, and baseless accusations against Plaintiff in
their unsupported and intentionally fraudulent 3/26/19
filings with fraudulent demand to consolidate
Plaintiffs lawsuits in order to harm Plaintiff. On
63

4/5/19, Plaintiff filed the second motion for sanctions
against defendants and the opposition to Defendants’
unsupported and intentionally fraudulent demand to
consolidate. In his 4/5/19 motion for sanctions and
opposition to consolidation, Plaintiff established by
direct evidence in the record that Hur/Marzullo
deceived the court to preclude the investigation of
federal crimes committed by Defendant Kessmeier
with her assistants and intentionally proffered
deliberate misrepresentations, fraud and inserted
their fraudulent demand to consolidate five other
lawsuits in order to cover-up Mail Fraud and Wire
Fraud of January 2019 committed by Defendant
Kessmeier with her assistants Defendant Caron and
others to harm Plaintiff.
10.Therefore, any reasonable mind can see that the
4/16/19 Order denying Plaintiffs three motions
[1/18/19, 3/25/19 and 4/5/19] is contrary to the evidence
in the record, wrong, and must be rescinded
11.The evidence in the Court records clearly shows
that the 4/16/19 Order is unsupported, wrong, and
must be, reconsidered with regard to the Defendants
fraudulent demand for consolidation and must be
rescinded to prevent injustice. All Hur/Marzullo’s
arguments in support of their demand to consolidate
five additional lawsuits are baseless and intentionally
fraudulent.
12.In the 4/5/19 second motion for sanctions and
opposition to consolidation, Plaintiff rebutted
Hur/Marzullo’s 3/26/19 filing with direct evidence of
recurring fraudulent arguments and baseless
accusations and opposed their unsupported and
fraudulent demand to consolidate. Direct evidence in
the court records show that Defendants representative
Hur/Marzullo submitted on 3/26/19 intentionally
64

fraudulent arguments and baseless accusations on
page 2 in paragraph 5 that “to date, two defendants in
their individual capacities remain to be served with
process. See ECF No. 25,” and demanded consolidation
with other lawsuits.
To receive relief, Plaintiff
requested in the 4/5/19 motion to deny Hur/Marzullo’s
demand for consolidation and to impose sanctions
against defendants for violations of laws, fraud and for
intentionally fraudulent demand to consolidate.
13. On April 5, 2019, Plaintiff timely filed motion in
opposition
to
consolidation
and
rebutted
Hur/Marzullo’s fraud and fraudulent arguments and
informed the court that during administrative
proceedings Defendant Kessmeier with her assistant
Defendant Caron by fraud precluded the investigation
of Plaintiffs instant lawsuit 72 claims, 14 counts and
the examination of 20 witnesses under oath. None of
the defendants were examined under oath to this day.
In the 4/5/19 motion Plaintiff strongly opposed the
consolidation and provided direct evidence in the
record that instant lawsuit already has 72 claims, 14
counts and 20 witnesses to be examined under oath
and the addition of other five lawsuits is
counterproductive, the consolidation will not lead to
saving in time and funding but on the contrary will
make proceedings longer, more expensive and unjust
to Plaintiff.
14.Contrary to Hur/Marzullo’s fraud and fraudulent
arguments Plaintiffs other five lawsuits include not
only different claims but also new and additional
witnesses because Defendant Kessmeier in conspiracy
with her assistants Defendant Caron and others
instigated agency officials to escalate violations of
laws,
fraud,
intentional
discrimination
and
retaliations, Defendants were not stopped nor
65

punished so they with impunity escalated violations of
laws, escalated new violations of Plaintiffs rights, for
example, repeatedly transferred Plaintiff involuntary
from one technology department to another technology
to escalate retaliations, and did this with impunity,
then, considering that these pain and sufferings were
insufficient to Plaintiff, they violated new laws and
regulations,
intentionally
fabricated
baseless
accusations to suspend Plaintiffs Top Secret Security
Clearance in order to remove him from work and
federal service by fraud. However, after Plaintiff
appealed to the special court regarding security
clearance suspension, i.e. to the Defense Office of
Hearing and Appeal [DOHA] and rebutted all baseless
accusations and fraud committed by various
Defendants, the DOHA judge observed during the
hearing that none of the accusers came to the hearing
because they were afraid to testify under oath and to
loose their security clearances for committing perjury
and fraud. DOHA judge ruled in favor of Plaintiff and,
as a result of DOHA decision, the Chief of Naval
Operation’s Office issued letter to restore Plaintiffs
Top Secret Security Clearance, to reinstate into pay
status and Plaintiff returned to work. However,
Defendant Kessmeier and her assistants Defendant
Caron in conspiracy with others, committed new
violations of laws; additional fraud, egregious
retaliations, hence Plaintiff filed new disclosures, new
claims and new lawsuits. Hur/Marzullo intentionally
contradicted evidence in the court records, such as in
Plaintiffs lawsuits filed in 2011, 2012, 2013 and 2014,
and also in the instant case, for example, see the
original US Postal Service receipts of 1/5/19 attached
to Plaintiffs 1/18/19 Motion to Investigate Fraud, that
clearly show that Plaintiff sent his certified mail to the
66

Defendants in Bethesda, MD 20817, however, the
summonses and complaints were returned to
Plaintiffs residence because Defendant Kessmeier
with her assistants committed recurring Mail Fraud
and Wire Fraud by tampering with the official US
Postal Service records and return cards in January
2019. Defendants’ fraud and fraudulent arguments in
the Defendants’ 3/26/19 motion are obvious to any
reasonable mind. In the interest of justice and for the
reasons explained more fully below the Plaintiff
respectfully requests to rescind 4/16/19 Order and to
deny Defendants 3/26/19 motion and to keep separate
this case timely submitted to the U.S. District Court
with full payment in 2009 from the other five civil
action cases submitted to the U.S. District Court
separately with full payment each in 2011, 2012, 2013
and 2014.
15.Direct evidence in the court records show that
Defendants representative Hur/Marzullo submitted in
3/26/19 unsupported motion with intentionally
fraudulent arguments and baseless accusations
contrary to the evidence in records. Accordingly
Plaintiff respectfully requests to rescind the 4/16/19
Order, to grant Plaintiffs Second Motion for Sanctions,
and to Impose additional Sanctions against the
Defendants.
16.In contrast to the Plaintiffs 1/18/19 “Motion to
Investigate Fraud” which was timely and supported by
direct evidence in the records, the Defendants 3/26/19
“motion to consolidate” was unsupported, untimely,
and must be denied because of deliberate
misrepresentations.
17. The instant case was filed with the court in 2009
and reactivated in September 2018, then on 12/21/18
court Order granted Plaintiffs 10/31/18 Motion to
67

Amend, and accordingly, since 12/21/18 in the
amended case there are already 72 claims, 14 counts,
and 20 witnesses. There is no need to add more claims
and witnesses because most of the 72 claims were not
investigated and none of the witnesses were examined
under oath to this day. This had happened so because
of Defendant Kessmeier’s and her assistant Defendant
Caron’s criminal conduct and fraud, they intentionally
committed violations of laws with impunity to obstruct
justice, to harm Plaintiff and to preclude during
administrative proceedings the examination of
witnesses under the oath and the investigation of
claims so that Defendants could continue to escalate
intentional violations of laws, fraud, intentional
discrimination and escalated retaliations against
Plaintiff. The same pattern of Kessmeier’s and Caron’s
criminal conduct and fraud to harm Plaintiff had been
committed as recently as January 2019, while the
instant case was active and proceeding, they
attempted to dismiss instant case [with 72 claims, 14
counts and 20 witnesses] by fraud i.e. by committing
mail fraud and wire fraud with summonses and
complaints sent to each alive Defendant. However,
Defendants representatives Hur/Marzullo submitted
fraud and baseless accusations against Plaintiff in
defendants’ filings of 3/26/19, 3/18/19 and 3/13/19, in
spite of the fact that Plaintiff timely mailed via the US
Postal Service restricted certified mail the summons
and complaint to each alive Defendant on January 5,
2019 and served the 17 defendants at last known
address in Bethesda, MD 20817 by January 21, 2019,
pursuant to the 12/21/2018 Order. Kessmeier with
Caron and their agent tampered with the official US
Postal Service certified mail with restricted delivery
for 15 defendants in Bethesda, MD 20817,
68

intentionally tampered with the official US Postal
Service records to delete the January 7 or January 8,
2019 entry of mail delivery in the USPS mail tracking
records for 15 defendants in Bethesda, MD 20817 and
committed fraud with 14 green cards/return receipts in
violation of the federal laws and postal regulations.
18. To deceive the court and to cover-up Defendant
Kessmeier’s and Defendant Caron’s escalated federal
crimes, the January 2019 recurring mail fraud and
wire fraud, defendants representative Hur/Marzullo
persisted
to
escalate
fraud,
deliberately
misrepresented facts and committed fraud in their
motions of 3/13/19, 3/18/19 and 3/26/19. To cover-up
willful and persistent fraud in Hur/Marzullo’s filings
and the recurring federal crimes of Mail Fraud and
Wire Fraud committed by Defendant Kessmeier with
Defendant Caron and others, Hur/Marzullo inserted
intentionally fraudulent demand to consolidate five
separate lawsuits to impose undue burden on the
Plaintiff.
19.Moreover, because the already large number of
claims have to be investigated, [72 claims and 20
witnesses to be examined under oath] that will take
considerable time during discovery and jury trial.
Accordingly, Plaintiff respectfully requests to rescind
the 4/16/19 Order and to issue new Order by denying
defendants 3/26/19 unsupported and intentionally
fraudulent demand to consolidate, to impose additional
sanctions against defendants and to Order discovery
and then jury trial to supplement intentionally
deficient records because all Plaintiffs prior requests
for investigation of claims and for discovery during
administrative proceedings were precluded by
Defendant Kessmeier’s and her assistant Defendant
Caron’s criminal conduct.
69

20.Direct evidence in the court records show that since
2002 Defendants Kessmeier and Caron had willfully
and persistently violated federal, common and
criminal laws time and again, year after year with
impunity, see for example Plaintiffs Case No. l:07-cv01985-DKC and Plaintiffs 2017 Petition for Writ of
Certiorari to the US Supreme Court No. 17-174.
Accordingly, in order to conduct fair adjudication of
Plaintiffs claims and to examine Defendants under
oath, Plaintiff respectfully requests to commence the
60-days discovery to examine Defendants under oath,
to investigate claims, to supplement deficient court
records with evidence and agency documents solely in
Defendants’ possession, in order to prepare the case for
jury trial and then to conduct jury trial.
21. Therefore Plaintiff strongly opposes consolidation
and respectfully requests the Court to rescind the
4/16/19 Order, to rescind the consolidation because the
order imposes undue burden on the Plaintiff and is
unsupported by the evidence in the court records.
Clearly, consolidation of the current case with 72
claims, 14 counts, and 20 witness to examine under
oath with additional claims in five other lawsuits each
filed separately with fully paid fee will be unfair,
burdensome, counterproductive, and unnecessarily
delay and complicate the process. Moreover, the
lawsuits in the five other lawsuits filed in 2011, 2012,
2013 and 2014 were filed considerably later than the
current case. Accordingly, the justice will not be
served by consolidating the current civil action case
with the five other cases and 4/16/19 Order must be
rescinded.
22. In addition, for each filed lawsuit Plaintiff paid full
filing court fees and each civil action includes not only
large number of different claims but also different
70

Defendants and witnesses since Defendants in each
case, instigated by Defendant Kessmeier and
Defendant Caron, escalated violations of laws and
retaliations,
intentionally transferred Plaintiff
involuntary from one technology department to
another technology department, violated Plaintiffs
rights, maliciously harmed Plaintiff, and then by fraud
removed Plaintiff from work twice to escalate harm to
the Plaintiff and to inflict severe pain and suffering in
each case and as such the consolidation and the
addition of more claims and more Defendant and
witnesses will make consolidated case considerably
longer, impose undue burden on both Plaintiff and
Defendants, and will not serve justice or spare scarce
resources.
23.Accordingly, consolidation of the instant case CCB09-3479 filed in 2009 with any of the followed lawsuits
filed separately in 2011, 2012, 2013 and 2014 will do
more harm, impose undue burden, needless delays,
and longer discovery and make the hearing longer and
more expensive, Further, pending additional two
criminal cases of recurring Mail Fraud and Wire
Fraud committed by Defendant Kessmeier with her
assistants Defendant Caron and others in April 2014
and January 2019 will be the subjects of new court
actions.
24. Thus, Plaintiff respectfully requests to rescind the
4/16/19 Order and to rescind consolidation. Plaintiff
objected and opposed consolidation in the 4/5/19
Motion and again strongly objects and opposes
consolidation of the instant complaint because
consolidation will not spare scarce resources, but on
the contrary consolidation of complaints will
needlessly make hearing longer, complicate and
extend the process, and make proceeding more
71

expensive. The consolidation will only harm Plaintiff
and deprive Plaintiff of necessary time to effectively
prepare the case for jury trial of already amended
complaint with numerous claims, including 72 claims
and 14 counts against the Defendants and to examine
20 defendants under oath at the jury trial. In the
interest of justice, Plaintiff strongly opposes
consolidation of the instant complaint with my other
civil actions and requests to rescind the 4/16/19 Court
Order.
Wherefore, in consideration of the above, Plaintiff
respectfully requests to grant this “Motion to
Reconsider and Rescind the 4/16/19 Order and to Issue
New Order to rescind consolidation of lawsuits, and to
grant Plaintiffs motions to Investigate Recurring
Federal Crimes of Mail Fraud and Wire Fraud
committed by Defendants and to Impose Sanctions
against Defendants”.
Respectfully submitted
/s/Dr. Yuri Stoyanov 7560 Pin dell School Rd, Fulton,
MD 20759
Certificate of Service
I hereby certify that on the _26 day of _April 2019, a
copy of the Plaintiffs “Motion to Reconsider and
Rescind the 4/16/19 Order and to Issue New Order to
rescind consolidation of lawsuits, and to grant
Plaintiffs motions to Investigate Recurring Federal
Crimes of Mail Fraud and Wire Fraud committed by
Defendants and to Impose Sanctions against
Defendants” and proposed Order was sent to the
following via:
First Class Mail to the following:
Robert Hur/Kelly Marzullo
Hand Delivered or
Assistant United States Attorney
First Class Mail to the followi:
36 South Charles Street
Clerk of the Court
72

Fourth Floor
Baltimore, Maryland 21201
Or Fax (410) 962-9947

United States District Court
Southern Division
6500 Cherrywood Lane
Greenbelt, Maryland 20770

April 26. 2019
/s/
Dr. Yuri Stoyanov
Date
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Dr. YURI J. Stoyanov,
Plaintiff
vs.
Case No. CCB-09-3479
MR. RAY MABUS, Secretary of the Navy, et al.,
Defendants...
Order
Upon consideration of Plaintiffs “Motion to Reconsider
and Rescind the 4/16/19 Order and to Issue New Order
to rescind consolidation of lawsuits, and to grant
Plaintiffs motions to Investigate Recurring Federal
Crimes of Mail Fraud and Wire Fraud committed by
Defendants

and

to

Impose

Sanctions

against

Defendants,” and for good cause shown, it is hereby
ORDERED:
1.Plaintiffs “Motion to Reconsider and Rescind the
4/16/19 Order and to Issue New Order to rescind
consolidation of lawsuits, and to grant Plaintiffs
motions to Investigate Recurring Federal Crimes of
Mail Fraud and Wire Fraud committed by Defendants
and to Impose Sanctions against Defendants,” in this
case SHOULD BE and hereby IS GRANTED;
2.The 4/16/19 Order is RESCINDED;

73

3.Parties

ORDERED

to

commence

60

days

DISCOVERY;
4.Defendants Ordered to Pay all Plaintiffs Discovery
expenses and Jury trial expenses;
5.Robert Hur, the Defendants’ Representative and the
US Attorney for the District of Maryland, is Ordered to
Investigate Mail Fraud and Wire Fraud committed by
Defendant Kessmeier with her assistant Defendant
Caron and others in January 2019 and in April 2014,
and to prepare and release to Plaintiff investigative
reports for these criminal cases;
6.Defendants’ Representative is ORDERED to accept
and serve with summons 15 Defendants.
Date:

Catherine C. Blake/ United

States District Judge

74

